<html>
<title> - REMOVING THE SHROUD OF SECRECY: MAKING GOVERNMENT MORE TRANSPARENT AND ACCOUNTABLE</title>
<body><pre>[Senate Hearing 111-728]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-728
 
                    REMOVING THE SHROUD OF SECRECY:
                   MAKING GOVERNMENT MORE TRANSPARENT
                    AND ACCOUNTABLE--PARTS I AND II

=======================================================================

                                HEARINGS

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                   INFORMATION, FEDERAL SERVICES, AND
                  INTERNATIONAL SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                      MARCH 23 and APRIL 13, 2010

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
56-893                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                                 ------                                

 SUBCOMMITTEE ON FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, 
              FEDERAL SERVICES, AND INTERNATIONAL SECURITY

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 JOHN McCAIN, Arizona
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
ROLAND W. BURRIS, Illinois

                    John Kilvington, Staff Director
                Erik Hopkins, Professional Staff Member
    Bryan Parker, Staff Director and General Counsel to the Minority
                   Deirdre G. Armstrong, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper............................................... 1, 25
    Senator Coburn...............................................    15
Prepared statements:
    Senator Carper.............................................  47, 51
    Senator McCain...............................................    49
    Senator Coburn...............................................    53

                               WITNESSES
                        Tuesday, March 23, 2010

Vivek Kundra, Federal Chief Information Officer and Administrator 
  for Electronic Government and Information Technology, Office of 
  Management and Budget..........................................     5
Hon. Aneesh Chopra, Chief Technology Officer and Associate 
  Director for Technology, Office of Science and Technology 
  Policy, Executive Office of the President......................     7
Hon. David S. Ferriero, Archivist of the United States, National 
  Archives and Records Administration............................     9
Ellen Miller, Co-Founder and Executive Director, Sunlight 
  Foundation.....................................................    23

                        Tuesday, April 13, 2010

John Wonderlich, Policy Director, Sunlight Foundation............    27
Stephen W.T. O'Keeffe, Founder, MeriTalk Online..................    29
Thomas Blanton, Director, National Security Archive, George 
  Washington University..........................................    33

                     Alphabetical List of Witnesses

Blanton, Thomas:
    Testimony....................................................    33
    Prepared statement.........................................  85, 97
Chopra, Hon. Aneesh:
    Testimony....................................................     7
    Prepared statement...........................................    61
Ferriero, Hon. David S.:
    Testimony....................................................     9
    Prepared statement...........................................    67
Kundra, Vivek:
    Testimony....................................................     5
    Prepared statement...........................................    54
Miller, Ellen:
    Testimony....................................................    23
    Prepared statement...........................................    72
O'Keeffe, Stephen:
    Testimony....................................................    29
    Prepared statement.........................................  79, 93
Wonderlich, John:
    Testimony....................................................    27
    Prepared statement...........................................    89

                                APPENDIX

Robert Pinkerton, Director, Public Sector Solutions, Adobe 
  Systems, Inc., prepared statement..............................    75
Stephen W.T. O'Keeffe, Founder, MeriTalk, prepared statement with 
  attachments....................................................    79
Thomas Blanton, Director, National Security Archive, George 
  Washington University, prepared statement......................    85
Questions and Responses for the Record:
    Mr. Kundra...................................................   101


                    REMOVING THE SHROUD OF SECRECY:
                   MAKING GOVERNMENT MORE TRANSPARENT
                        AND ACCOUNTABLE--PART I

                              ----------                              


                        TUESDAY, MARCH 23, 2010

                                 U.S. Senate,      
        Subcommittee on Federal Financial Management,      
              Government Information, Federal Services,    
                              and International Security,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:31 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Subcommittee, presiding.
    Present: Senators Carper and Coburn.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Well, good afternoon, everyone. The 
Subcommittee will come to order.
    Senator Coburn and I were talking back in the anteroom 
about what is going to happen on the floor. It will be 
interesting to see what happens on the floor this afternoon, 
but we are going to go ahead and get started, and we will see 
how far we can go. We appreciate that our panel of witnesses 
could be here today. We will do as much as we can, and if we 
have to, we will just recess or adjourn and come back around 
midnight. [Laughter.]
    Well, maybe not that late, but it looks like we could be 
here for a long time tonight. Hopefully you will not have to 
be. But our thanks to our guests and our witnesses for joining 
us today. For the next hour or so, we are going to discuss ways 
that President Obama and his team of Open Government experts, 
some of whom are here today, can reshape old and inefficient 
bureaucratic agencies into lean--not so mean--citizen-focused 
machines.
    We have also invited a panel of outside experts to testify 
on areas where the Administration is doing well, what areas 
they may need to apply a bit more attention, and more 
importantly, how making agencies more open and transparent will 
make the lives of America's 300 million citizens better.
    I am told that Albert Einstein once said that, 
``Information is not knowledge.'' Now, I would also like to 
quote Albert Einstein who said, ``In adversity lies 
opportunity.'' I have never heard this quote, but my staff told 
me that he also said, ``Information is not knowledge.'' And I 
think that statement is as true today as it was then. In the 
21st Century, information is power.
    In fact, some would say that the U.S. economy has 
experienced a surge in job and wealth creation over the past 
three decades because of the information revolution and 
advances in technology. But like any other tool, information 
unto itself does not do us a lot of good unless we know how to 
use it.
    For example, just because we simply possess a hammer does 
not mean a house will build itself, but if we know how to use 
the hammer, then we can see how a house can be built and go 
right ahead and build it. I think the same is true with 
government information.
    So we called this hearing not only to see what agencies 
need to do to open up their treasure troves of information, but 
also I would like for us to learn how releasing this 
information will reduce wasteful agency spending, make senior 
leaders more accountable, and improve, we hope, the lives of 
everyday Americans.
    On his first day in office, President Obama took an 
extraordinary step in signing an Open Government Directive 
which instructed agencies to open their operations to the 
public. The idea behind the directive is that a more Open 
Government allows members of the public to contribute ideas and 
their expertise to government initiatives. This collaboration 
will hopefully improve the effectiveness of agenies by 
encouraging partnerships and cooperation within the Federal 
Government, across levels of government and between the 
government and the private sector.
    Further providing more government information by default 
instead of by exception will help reduce the financial and 
administrative burdens on the Freedom of Information Act (FOIA) 
process and spur innovation in the private sector. But as our 
Administration moves forward on these new and exciting 
initiatives, I want to make sure that we are sticking to 
fundamentals.
    For example, I am told that despite the fact that 
legislation such as the Presidential Records Act and the 
Federal Records Act have been law for decades, agencies have 
done an abysmal job when it comes to preserving their physical 
and electronic records. In fact, it was only 2 years ago when 
we held a hearing that touched on the fact that the Bush White 
House could not locate millions of e-mails, including those 
from the 3 months leading up to the invasion of Iraq. That type 
of situation is just unacceptable, and we need to make sure 
that it is not repeated again.
    Further, as our witnesses may know, I joined Senators 
Coburn and McCain and a former Senator named----
    Senator Coburn. Obama.
    Senator Carper. Senator Obama, a few years ago when he was 
a mere mortal, passed the Federal Funding, Accountability, and 
Transportation Act under the leadership of the fellow sitting 
here to my right. My colleagues and I put forward this 
legislation to increase the transparency and accountability of 
the Federal Government by providing access to information on 
Federal spending through a single, searchable, publicly 
available Website. However, the Government Accountability 
Office (GAO) recently released an evaluation of 
USAspending.gov, the Website created as a result of Senator 
Coburn's legislation, and it seems that there have been some 
problems.
    For example, GAO stated that there were widespread 
inconsistencies between the information provided on 
USAspending.gov and the actual physical records of 
transactions. And, furthermore, the Office of Management and 
Budget (OMB) apparently does not hold agencies accountable for 
ensuring that information placed on the site is accurate and 
reliable. So before we start pushing agencies to spend time and 
money on releasing more information, we want to make sure that 
the information we have is reliable and accurate.
    In closing, then, I will just add that as we discuss all 
the new, exciting initiatives that the Administration has 
underway or plans on undertaking in the near future, we need to 
keep our eye on the ball. Our job does not just end at making 
information freely available, but in making sure that the 
information can be effectively used to improve services to 
every American, to reduce wasteful spending, and to enforce 
accountability.
    Again, thanks to our witnesses for taking your time to be 
here with us today and for sharing your ideas on these and 
other important issues. I am not going to recognize Senator 
McCain, although my script says to do that, but I do want to 
recognize the Senator from Oklahoma whose initials I share and 
whose passion I share for trying to make government work 
better, more cost effectively.
    And I want to say, Senator Coburn, it was an honor to join 
you and a couple of our colleagues a number of years ago to 
pass legislation that we thought at the time could do a great 
service to this country. And I do not think we have realized 
its full potential yet, but we now have an Administration here 
that seems to be intent on making sure that we do reach that 
potential, and when we do, you are going to get a lot of 
credit.
    So thanks very much for being here today.
    Senator Coburn. Thank you. Well, welcome to each of you. 
The President and I and Senator Carper and Senator McCain 
worked very hard to put into place one of the tools we thought 
that American citizens could hold us accountable by. I must say 
I am significantly disappointed at both the quality and the 
depth of information that is available. I applaud President 
Obama for wanting to make more steps towards transparency, but 
I would caution him that if we cannot do the first one, the 
simplest one, and we cannot do it well, why would we start off 
on other areas until we got the first one right?
    So I look forward to your testimony. I have a lot of 
questions about the Transparency and Accountability Act. It is 
of no value when the vast majority of the money is 
subcontracted and we do not have any intent or have the 
information with which to hold subcontractors, sub-grantees, 
sub-awardees, accountable. Let me just give you two examples.
    During Hurricane Katrina, we paid the Corps of Engineers 
$60 a cubic yard to get rid of the debris. The guy on the 
ground eight layers lower was getting $6 a yard. We consumed 
$54 in sub-grantees before we picked up the first cubic yard of 
debris, and we paid 10 times more for that than what the actual 
cost of picking up the debris and hauling it off was. If we are 
not going to do sub-awards and sub-grantees, there is no reason 
to have the site in the first place.
    The other thing that is very dangerous about it is we are 
creating an expectation of the American public, and then we are 
going to pop the balloon. If the American public goes there 
thinking they can find out and it is not available--it was not 
just for Congress that we asked this.
    The other thing I would note is by June 30 of this year the 
law mandates--it does not say you may, it says you will have 
put in place a system to measure sub-grants, sub-awards, so 
that everybody in this country can see it. I am going to have a 
lot of questions in that regard.
    I know it is a tough effort. I do not deny that. But unless 
we have the OMB pushing down and holding the agencies 
accountable, it is never going to happen. I would like to see 
as much emphasis in fixing the Transparency and Accountability 
Act as the Administration plans to put on these other wonderful 
areas of transparency that we need. But if their results are 
the same as the Transparency and Accountability Act, we are 
going to create more disappointment in the American public.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Coburn.
    I want to turn to our witnesses and go ahead and introduce 
them. We may start voting at about 2:45 p.m., and if we do, if 
we just have one vote, Dr. Coburn, I do not know if you want to 
tag-team and I could stay here until maybe you could run and 
vote and then come back. But just think about that, if that 
might work for you. That way we can keep going.
    Senator Coburn. I will try to do that.
    Senator Carper. Good. Thanks so much.
    Let me just start by introducing our first three witnesses 
today. First we have a familiar face who is no stranger before 
this Subcommittee. Vivek Kundra is the Federal Chief 
Information Officer of the United States and responsible for 
overseeing the Federal Government's management of information 
technology. He comes to us most recently from the District of 
Columbia where he was recognized by InfoWorld as one of the top 
25 chief technology officers not just in the District of 
Columbia, not just in the United States, but around the world. 
Congratulations and we thank you very much for your service. We 
thank you for being here and for the dialogue that we have 
enjoyed in the past year or so.
    Next up we have the Hon. Aneesh Chopra, who is the Chief 
Technology Officer of the United States. I understand that Mr. 
Chopra and Mr. Kundra are the ones responsible for tag-teaming 
President Obama's technology and transparency initiatives. Mr. 
Chopra comes to us from the Commonwealth of Virginia where he 
was the Secretary of Technology. Who was the governor then? Not 
Warner.
    Mr. Chopra. Tim Kaine.
    Senator Carper. Tim Kaine, OK. I am told that you and Mr. 
Kundra also served together in Virginia at the same time. Is 
that right?
    Mr. Chopra. Yes.
    Senator Carper. OK. We are grateful for you to be here 
today and serving together once more.
    The final witness is the Hon. David Ferriero, Archivist of 
the United States and the head of the National Archives and 
Records Administration. Essentially, he is the defender of our 
Nation's history. That is a heavy burden to carry. He has 
previous experience at the New York Public Library, at MIT, and 
he is a veteran of the U.S. Navy.
    We thank you, Mr. Ferriero, and the rest of our panelists 
for taking the time to be with us here this afternoon. I am 
going to recognize Mr. Kundra to begin with his opening 
statement. I was able to read everyone's written statements, so 
if you want you can summarize for about 5 minutes. If you go a 
couple minutes over that, I will not rein you in, but if you go 
too far over, then I will have to. But we look forward to 
having a great dialogue here with you this afternoon. Thank you 
so much for your preparation and for your presence and for your 
willingness to have this discussion with us today. Thank you.
    And your entire statements will be made part of the record, 
for each witness.
    Mr. Kundra, you are recognized.

TESTIMONY OF VIVEK KUNDRA,\1\ FEDERAL CHIEF INFORMATION OFFICER 
  AND ADMINISTRATOR FOR ELECTRONIC GOVERNMENT AND INFORMATION 
          TECHNOLOGY, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Kundra. Good afternoon, Chairman Carper, Senator 
Coburn, and Members of the Subcommittee. Thank you for the 
opportunity to testify about how this Administration is working 
to make government more transparent and accountable for the 
American people.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kundra appears in the Appendix on 
page 54.
---------------------------------------------------------------------------
    On his first full day in office, President Obama signed the 
Memorandum on Transparency and Open Government. This 
Administration is laying a new foundation that changes the 
default setting of the government from closed, opaque, and 
secretive to transparent, open, and participatory. I would like 
to talk about Open Government not as an abstract idea or 
notion, but specifically how it is driving innovation, 
improving performance, and changing the way we serve the 
American people.
    Opening our government allows us to draw upon the knowledge 
of all Americans, not just those inside the Beltway of 
Washington. The Federal Government does not have a monopoly on 
the best ideas, nor does it have unlimited resources. We have 
seen how third parties can create tremendous value when given 
the opportunity.
    The Department of Defense's decision to release Global 
Positioning System (GPS) data sparked innovations that touch 
our daily lives, helping us reach our destinations throughout 
the country and helping first responders save lives.
    To unlock the value of public data, we launched data.gov 
last May with just 47 data sets. Now there are over 169,000 
data sets on every aspect of government operations, from public 
safety to the environment to health care. In just 10 months, 
third parties have already used these data sets to build 
applications that serve the American people such as 
FlyOnTime.us, which allows travelers to check wait times at 
security lines across the country and also view airline on-time 
performance.
    As we democratize data, we must also foster an innovation 
ecosystem to support the creative use of these data sets. That 
is why OMB released guidance this month to increase the use of 
prizes and challenges across the public sector and will launch 
a challenge platform to facilitate innovation.
    The concept of challenges and prices goes back to at least 
1714 when the British Government offered 20,000 pounds to 
anyone who could develop a method to calculate a ship's 
longitude. The prize motivated clock maker John Harrison to 
develop the marine chronometer which solved the problem in a 
simple and efficient way.
    Open Government also helps keep the government accountable. 
As the President said in his inaugural speech, ``Those of us 
who manage the public's dollars will be held to account to 
spend wisely, reform bad habits, and do our business in the 
light of day, because only then can we restore the vital trust 
between a people and their government.''
    Last June, we launched the IT Dashboard, which allows the 
American people to monitor Information Technology (IT) 
investments across the Federal Government. Last July, the 
Department of Veterans Affairs (VA) halted 45 IT projects that 
were significantly behind schedule or over budget, identified 
in part thanks to the IT Dashboard. In terminating 12 of these 
projects, the VA avoided wasting $54 million of taxpayer money.
    Building on the foundation of the IT Dashboard, we launched 
face-to-face evidence-based reviews of IT programs called 
TechStat Accountability Sessions. These sessions enable 
government officials to collaborate with one another to turn 
around or halt IT investments that do not produce dividends for 
the American people.
    As we continue to open up our government, we must balance 
our decisions with protecting the privacy of the American 
people and safeguarding national security. Individual pieces of 
data, when released independently, may not reveal sensitive 
information, but when they are combined, this mosaic effect 
could be used to derive personal information or information 
that is vital to national security.
    The government, unfortunately, has a history of not 
managing data quality from accuracy to completeness to 
timeliness. To improve data quality, OMB released the Open 
Government Directive on December 8, 2009. This directive 
actually requires every agency to designate a senior official 
accountable for data quality, objectivity, and internal 
controls across financial spending.
    On April 7, 2010, OMB will release a strategy for sub-award 
reporting to help carry out the vision of the Federal Funding 
Accountability and Transportation Act that this Subcommittee 
fought for. To provide better insight into Federal spending, we 
will launch an improved USAspending.gov platform. We are just 
at the beginning of what can be accomplished. Imagine 
enterprising Americans and government officials working 
virtually alongside one another to co-create the next 
generation of public services. Imagine being able to create and 
share dashboards on demand, powered by data, to shed new light 
into government performance in the same way that we share 
YouTube videos with our family and friends.
    Open Government is not an abstract notion. It is a new way 
of doing business in Washington. The Obama Administration is 
committed to make the Federal Government work better for the 
American people.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    Senator Carper. Thanks for your excellent testimony. Very 
well delivered, thank you. Mr. Chopra, please proceed.

 TESTIMONY OF HON. ANEESH CHOPRA,\1\ CHIEF TECHNOLOGY OFFICER 
 AND ASSOCIATE DIRECTOR FOR TECHNOLOGY, OFFICE OF SCIENCE AND 
      TECHNOLOGY POLICY, EXECUTIVE OFFICE OF THE PRESIDENT

    Mr. Chopra. Thank you, Chairman Carper and Senator Coburn. 
I would like to expand upon my colleague's testimony with 
particular emphasis on how we are harnessing technology, data, 
and innovation to improve the lives of everyday Americans.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Chopra appears in the Appendix on 
page 61.
---------------------------------------------------------------------------
    In my capacity as the Chief Technology Officer, I've had 
the honor and privilege of working with the American people in 
developing the recommendations that form the basis of our Open 
Government Directive per the President's instructions in that 
memorandum that he signed on his first full day in office.
    Over the course of 2 months starting last May, we held an 
unprecedented consultation process that surfaced over 900 
ideas, thousands of public comments, and over 300 draft 
versions of Open Government recommendations. The directive that 
we published December 8, 2009, referenced many of those 
recommendations and serves as an aggressive timeline for our 
entire Federal Government to meet specific milestones towards 
greater openness, including the publication of new high-value 
data sets on Data.gov.
    Now, what does Open Government mean to the American people? 
When the Department of Agriculture makes nutritional 
information available, parents can make smarter eating choices 
for their families. When the Department of Education makes key 
information available about colleges and universities, students 
can make more informed choices about the quality and cost of 
their education. When the Department of Labor makes information 
on workplace risks and hazards available, employers can improve 
the safety of their workplaces for employees.
    I would like to highlight three examples to better 
illustrate our approach and its current impact on the American 
people.
    On the topic of innovation, our engine of economic growth, 
as we all know, is born on the ingenuity of America's small 
businesses. To that end, I am pleased to announce that today 
the Defense Advanced Research Projects Agency (DARPA), will 
begin providing data on awardees of the Small Business 
Innovation Research Program that utilize a new streamlined 
process for contracting and will extend this streamlined 
process to future Small Business Innovation Research (SBIR) 
solicitations. Initially, DARPA will display data on the number 
of awardees that are eligible for this streamlined process, how 
many awardees have opted for it, and the average number of days 
it has taken to complete the streamlined agreement.
    As an example, Mr. Chairman, typical contracting in this 
domain might take 5 to 6 months to complete. But we believe 
that this streamlined approach will take, on average, less than 
60 days. That represents a 60- to 70-percent reduction in both 
time and cost, savings that will help small businesses 
throughout the country in achieving lower costs and getting 
them to work faster on the important projects we have in front 
of them.
    In energy, we recently concluded a Smart Grid Forum online 
which focused on the impact the Nation's energy consumers will 
have in promoting innovation in smart grid products and 
services. Specifically, we invited all Americans to participate 
in a discussion on how best to deploy the smart grid, with 
particularly engaging discussions occurring on data access and 
consumer ownership.
    The thoughtful comments that we received will help our 
Nation accelerate the development of innovations to address 
some of the most challenging smart grid goals that we have, 
from deployment of smart grid solutions to the development of 
standards needed for the exchange of data, to ensuring 
cybersecurity in the smart grid. Put simply, Mr. Chairman, I 
want to know my energy usage on a real-time basis in my home, 
and this process helped to bring that forward.
    In education, on February 15, Education Secretary Arne 
Duncan announced the launch of the Open Innovation Web Portal 
at innovation.ed.gov, bringing together key stakeholders in 
education, including those who previously had no voice or way 
to elevate their ideas, in a collaborative manner so that those 
ideas can turn into reality. The Open Innovation Web Portal is 
a trial initiative that has engaged many stakeholders in 
education--from teachers to school administrators, parents and 
foundations, nonprofits and for-profit organizations alike--all 
to develop the innovations that our country desperately needs 
to achieve our President's goal to be the Nation with the 
highest percentage of college-educated citizens. The Department 
of Education has posted an initial set of challenges to engage 
the community around the Department's key priorities, including 
human capital and data.
    Again, Mr. Chairman, to make it simple, if a teacher in 
Delaware has a terrific idea to help kids understand physics 
better, this portal will allow that individual to find 
development capital from the philanthropic community so that 
the idea can be tested, validated, and scaled.
    Last, Mr. Chairman, I would like to end my remarks on how 
our commitment to an open and transparent government is 
surfacing and executing on the very best ideas from everyday 
Americans.
    Last August, President Obama challenged the 19,000 front-
line workers within the Veterans Benefits Administration to 
reduce the backlog of disability claims and streamline 
processing. Todd Bonn, a dedicated veterans service 
representative from the offices in Togus, Maine, submitted an 
idea through the VA's Innovation Initiative Website to improve 
certain performance metrics to get the agency to focus more on 
results and less on process. He was one of 7,000 participants 
submitting and voting on over 3,000 ideas from each of the 57 
regional offices within the Veterans Benefits Administration 
(VBA). His colleagues in Maine prepared a business plan that 
was pitched to a panel of national leaders, including Craig 
Newmark from Craigslist. Todd's idea was one of 10 selected for 
implementation, and what is remarkable about this is that his 
idea will take very little time and effort to reprogram the 
performance database. VA will implement this initiative by the 
summer at no incremental cost to taxpayers. Todd's story is yet 
another example of how this Administration is leveraging the 
principles of Open Government to meet our Nation's challenges.
    Thank you, Mr. Chairman, for your time, and, of course, we 
look forward to answering your questions.
    Senator Carper. You bet. Thank you again for an exciting 
and, I think, uplifting bit of testimony. Thanks so much.
    We have started the vote. I am going to try, if possible, 
to allow Mr. Ferriero to finish his testimony, but if we run 
short, we will have to run out and come back in a little bit. 
But I think we have two votes, and I think we will be able to 
just bear down and stay here. Thank you.
    Mr. Ferriero, go ahead.

TESTIMONY OF HON. DAVID S. FERRIERO,\1\ ARCHIVIST OF THE UNITED 
      STATES, NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

    Mr. Ferriero. Thank you for inviting me to participate in 
this hearing on making government more transparent and 
accountable. The last time I appeared before you was my 
confirmation hearing in September, so it is truly an honor to 
return. I would also like to thank you for the opportunity to 
testify alongside two visionary leaders whose work I deeply 
admire, Vivek Kundra and Aneesh Chopra.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ferriero appears in the Appendix 
on page 67.
---------------------------------------------------------------------------
    As the Subcommittee knows, on December 8, 2009, President 
Obama issued the Open Government Directive with the aim of 
making our government more accessible and accountable by 
improving transparency, public participation, and collaboration 
in and among the Federal agencies. This directive was 
enthusiastically received by the National Archives for the core 
of our mission is serving democracy by providing access to the 
essential documentation of the rights of American citizens and 
the actions of their government.
    NARA's own Open Government plan describes how we are 
providing guidance and services to assist Federal agencies with 
carrying out their plans. Our Records Management Program 
provides guidance for agencies on the records management issues 
highlighted in the Open Government Directive. Our National 
Declassification Center is taking a leadership role in ensuring 
that over 400 million pages of classified records in NARA 
holdings are declassified and made available to the public by 
the end of 2013.
    Our Office of Government Information Services has provided 
Questions and Answers on the Open Government Directive which 
outlines transparency issues that are relevant to the Freedom 
of Information Act.
    Today, however, I would like to focus my testimony on what 
I feel is the backbone of Open Government records management. 
To put it simply, the government cannot be accountable if it 
does not preserve and cannot find its records. Although I have 
only been in the job for 5 months, I have seen and heard enough 
to be concerned that across the government we are falling short 
in our records management responsibilities, particularly in 
regard to the exponential growth of electronic records. The 
long-term success of the Open Government Initiative--and the 
future of the National Archives--hinges on the ability of each 
Federal agency to effectively manage their records.
    At the National Archives and Records Administration (NARA), 
our records management approach is grounded in these three 
principles: Agencies must economically and effectively create 
and manage records necessary to meet business needs; records 
must be kept long enough to protect rights and assure 
accountability; and records of archival value must be preserved 
and made available for future generations.
    NARA's National Records Management Program is made up of 
nearly 100 full-time staff members. They have the enormous job 
of working with Federal records officers in over 250 different 
Federal agencies. They develop policy, guidance, and training. 
They conduct studies so others can learn best practices and 
avoid costly mistakes. They also work with agencies to conduct 
self-assessments of records management programs. This is part 
of the Archivist's statutory authority to conduct inspections 
and report findings to the appropriate oversight committees and 
the Office of Management and Budget.
    Most notably, they work with agencies to schedule and 
appraise records. This is how we ensure proper documentation of 
our government's actions. The statutory authority to grant 
Federal agencies disposition authority to manage their records 
is the most important responsibility I exercise as Archivist of 
the United States, because it determines what records will come 
to the National Archives for permanent preservation and access.
    Given that records management is the backbone of Open 
Government, the central question is: What is needed to ensure 
that Open Government values are realized and that NARA's 
mission is accomplished?
    My answer has two parts. First, heads of agencies and 
senior leaders across the Federal Government need to understand 
that the records and information they and their organizations 
are creating are national assets that must be effectively 
managed and secured so that the public can be assured of the 
authenticity of the record. Heads of agencies and senior 
leaders need to be held accountable for managing these assets. 
This is required by law in the Federal Records Act, but 
moreover, it is good government and a necessary condition of 
Open Government.
    In the next 30 days, NARA plans to send to Congress and OMB 
a report based on agency self-assessments carried out in 
September 2009. Our preliminary analysis of the data suggest 
that 79 percent of reporting agencies have moderate to high 
levels of risk associated with their records management 
programs, particularly with electronic records. These levels of 
risk in agencies should be a great concern to all who believe 
in open and accountable government.
    Second, senior agency leaders must work with NARA, OMB, and 
GSA, as well as with groups like the CIO Council, the Federal 
Records Council, and the Federal Web Managers Council, to 
develop the IT tools necessary to manage electronic records.
    The technical challenges associated with developing the IT 
tools for records management are not insignificant; however, 
these tools do not exist today because, in my view, the Federal 
Government has not deemed recordkeeping a high priority in IT 
systems. The Federal Government spends over $70 billion 
annually on information technology that, to a large degree, 
creates or receives Federal records in some form. Developing 
cost-effective electronic records management tools that work 
and then integrating them into agency IT systems needs to be a 
high priority.
    In conclusion, as Archivist of the United States and the 
leader of over 3,000 dedicated National Archives employees, I 
would like you to know that we are committed to doing all we 
can to carry out the National Archives mission to provide 
access to the essential documentation of the rights of American 
citizens and the actions of their government and to build an 
Open Government that values transparency, citizen 
participation, and collaboration.
    Thank you again for the opportunity to appear before you 
today, and I look forward to answering your questions.
    Senator Carper. Mr. Ferriero, thank you very much, and my 
thanks really to each of you for setting the stage for what I 
think is going to be a very interesting and I think very 
productive and helpful hearing.
    We start off, first of all, it looks like we have two votes 
back to back. I have 7 minutes to get there. I am going to 
recess for probably about the next 20 minutes, and we will be 
back. Dr. Coburn may come back before I do.
    We will be back shortly, and we look forward to asking 
questions of our first panel. But thank you for getting us off 
on the right foot.
    With that, the Subcommittee stands in recess for roughly 
the next 20 minutes. Thank you.
    [Recess.]
    Senator Carper. All right. You have all been having enough 
fun. Back to the salt mines. Thanks for hanging in here, folks. 
Good to be back with you. We had two votes, and if we are 
lucky, we will be able to get this hearing in without any 
further interruptions. We could be in session all night, but 
fortunately you will all be spared that.
    I have a couple of questions for folks on this first panel, 
and one of the things to do is I love to go into schools. I 
think we have over 200 public schools in Delaware. I also think 
I have been at almost every one of them over the years. And 
whenever I visit a school, kids ask really great questions. 
Some are really funny questions, too. For example, are you 
married to a movie star? Do you live in a mansion? Do you have 
a limousine? And on and on and on. Sometimes they ask me what 
do I like about my job. One time a kid not long ago asked me 
this question: ``What do you do?'' [Laughter.]
    I thought that was a pretty good question. And I said, 
well--he was in elementary school. I said, ``Do you have rules 
in your school?'' ``Yes.'' ``Do you have rules on your bus?'' 
``Yes.'' ``Do you have rules at home?'' There was kind of a 
mixed message on that one. But I said, ``My role is to work 
with other Senators, Representatives, and the President and 
Vice President to help make the rules for our country.'' And I 
said, ``Just like you have rules in your school and on your bus 
and at home, we have rules for our country. We call them 
laws.'' And he said, ``Oh, I get that. I get that.''
    What do you do? How would you explain your job? Because a 
lot of what we are going to cover here today and what we have 
covered in hearings leading up to this day can be another world 
for some people. The topics may not make that much sense, and 
it is hard to relate to what we are actually talking about. But 
when people say, ``What do you do?'' I want you to explain it 
in simple terms. And then I am going to ask some questions to 
follow up and see if we cannot bring what you are talking about 
here today to terms that it will be real in the lives of most 
people in our country.
    Mr. Kundra, do you want to go first? What do you do?
    Mr. Kundra. Sure. So, simply put, what I would say to a 
school kid is essentially when you apply for college and you 
have to fill out that student aid application, part of my role 
is make sure that the Department of Education is using 
technology to make your life easier; or when your parents have 
to go online and interact with their government, it is to make 
sure that they can easily interact, whether it is filing taxes 
or filing for a passport. It is to use technology ultimately to 
serve the American people.
    Senator Carper. Good. Thank you. Mr. Chopra.
    Mr. Chopra. Oh, man, that is a hard one to follow.
    Senator Carper. I am sure you are up to it.
    Mr. Chopra. Mr. Chairman, I would describe my role as 
producing three P's. The first of those P's is to ensure that 
we have the right policies that harness technology, data, and 
innovation for national priorities. The second is to make sure 
that we make thoughtful investments in platforms, that is, a 
modest investment in the public sector spurs a much larger 
investment in the nonprofit sector to expand and leverage the 
goal. And then the third is to support public-private 
partnerships, and that often means no new laws and no new 
funding, but a way to bring, as the President described, an 
``all hands on deck'' approach to advancing a certain priority.
    I am happy to engage on any examples in those domains, but 
that is essentially what I focus on.
    Senator Carper. Good. Thank you. Mr. Ferriero.
    Mr. Ferriero. And I am the records guy. My job is to make 
sure that we are collecting, protecting, and encouraging the 
use of the records of the government.
    Senator Carper. All right. The folks that all of you serve, 
we think they are interested in Open Government. A lot of them 
say that they are. How is Open Government going to help them 
from your perspectives, each of you?
    Mr. Kundra. Well, so in a big way, if you think about the 
innovations we have seen across the board, there has been this 
Old World view that the public sector has a monopoly on 
innovation and creating solutions. But if you think about just 
Apple, for example, and how Apple essentially created the App 
Store, and what happened is Apple did not go out there and 
build 150,000 applications. What it did is it provided a 
platform that allowed for innovation to happen on top of that. 
Or if you think about YouTube, YouTube did not go out there and 
create every video that you see there. It is the American 
people and people around the world that created that content 
that makes it so valuable.
    In the same way, when you think about government, it is a 
huge shift when you look at it in the context of Open 
Government where we are shifting power actually to the American 
people and not concentrating power in the hands of government 
employees. At the same time, by moving towards this 
architecture where we are building platforms allows third 
parties to start innovating, such as with spending data, and as 
Senator Coburn said, and providing the ability to see a $60 
contract and recognizing that only $6 out of that $60 contract 
is actually going towards doing that work. By shining a light 
on those types of issues, we can rethink public policy; we can 
rethink how we are investing in money. But, more importantly, 
it is making sure that the American people now have as much 
power in terms of knowing how their government works and not 
just sending tax dollars over to the government and hoping that 
they are spent well.
    Senator Carper. OK. Thanks. Others, please.
    Mr. Chopra. It is difficult to follow my colleagues in 
describing this, Mr. Chairman. I would say three things.
    First, the average American would want greater confidence 
that their government is working for them, so a great deal of 
transparency, including spending but even beyond, on the actual 
performance and outcomes more broadly is how we view the 
transparency component.
    The second component is what I would call news you can use. 
My wife and I have two little girls, a 3-year-old and a 1-year-
old, and we recently installed car safety seats. I am not the 
strongest guy in the world: You stick your knee in, you plug it 
in, and it is all really difficult to install. The National 
Highway Traffic and Safety Administration has a database on the 
ease of installation of car seats of every manufacturer in the 
country.
    Senator Carper. No kidding.
    Mr. Chopra. Yes, we just published that data for the first 
time in machine-readable format in January. So now every 
product has information on their ease of installation of that 
car seat online. News you can use. We have made it available so 
others can use it.
    And then the third one is the notion that somewhere someone 
has an idea on how our collective well-being can be improved. 
And the notion that your idea can be heard by your government 
and, frankly, acted upon it so that it can actually become 
real, Open Government allows us to shrink the concept of time 
from when you have an idea to when it can actually take hold 
and people can see those concepts being put into use to advance 
our collective well-being.
    Senator Carper. OK. Thank you. Mr. Ferriero.
    Mr. Ferriero. Let me answer that from two different 
perspectives.
    One, this is very much a bottom-up initiative. Each of the 
agencies has been encouraged to create an Open Government plan. 
And for my own agency, seeing how this process has unleashed 
talent in the organization in terms of thinking creatively 
about how we do our business, is for me one of the most 
important parts of this whole process.
    From the second perspective, I see a huge potential here to 
use the Open Government Initiative as a way of connecting our 
records management folks with our IT folks, because as I said, 
we cannot have Open Government if we do not have good records.
    Senator Carper. Thank you.
    I want to go back to a point that Senator Coburn and I 
mentioned earlier. About 3 or 4 years ago, several of us teamed 
up, under his leadership, with former Senator Obama, I think 
John McCain, among others, in order to pass something we called 
the Federal Funding Accountability and Transparency Act, and 
the original intent of that legislation was to shed a little 
bit of sunlight on the approximately $1 trillion that Federal 
agencies wrote every year in contracts and grants and in loans. 
One provision of the bill required OMB to set up a Website that 
would show where all the money was going.
    Unfortunately, the Government Accountability Office 
recently showed us that the information on the Website was 
inadequate in many instances and that agencies did not take the 
time to make sure that information was up to date. I have also 
heard that this type of situation may be happening on other 
transparency initiatives such as the Website used to track the 
stimulus spending and the Websites used to track overbudget IT 
investments.
    Let me just ask Mr. Kundra, if I could, what is the 
Administration doing to make sure that agencies provide 
accurate and up-to-date information on previous transparency 
initiatives as well as ones that we may be undertaking in the 
future?
    Mr. Kundra. Senator, I share your frustration and Senator 
Coburn's frustration in terms of how the government is moving 
forward and the quality of the data that is in a lot of these 
systems. But if I could just step back for a second, one of the 
challenges across the board as we look at the Federal 
Government is the number of systems that are out there. When 
this Administration came into office, there was a database that 
was set up, essentially USAspending 1.0. From a platform 
perspective, from a technology perspective, it was not scaled 
to be able to handle those trillion-dollars-plus transactions 
across the board.
    Second, if we looked at accountability at the agency level, 
one of the challenges was it was a culture of faceless 
accountability where everybody was responsible----
    Senator Carper. A culture of what?
    Mr. Kundra. Faceless accountability, so there was not a 
single individual accountable for the data. And then on top of 
that, what compounded the issue is that you had the grants 
community and you have the contracting community, and the 
communities themselves had not set the appropriate standards 
across the board so you could identify a grant from one agency 
and compare it to the grant from another agency.
    Part of what we have tried to do in the Obama 
Administration is on his first full day in office, the 
President issued a memorandum on Open Government. Immediately 
following that memorandum, we began scaling from a technology 
perspective the USAspending platform. The other area we 
invested in heavily as we looked at a nationwide system was 
with the Recovery Act. We wanted to make sure that we were not 
wasting taxpayer dollars by building two parallel systems.
    So there is a nationwide effort to collect data at a sub-
award level and across there, and we wanted to make sure, as we 
were making those investments, that we could leverage those 
investments as part of the USAspending platform. And as part of 
the Open Government Directive, what we have done is we have 
made sure that there is a senior accountable official at 
agencies who is charged to make sure that the data quality is 
accurate, it is comprehensive, and it is timely. At the same 
time, on April 7, OMB is going to be releasing very specific 
guidance to agencies on sub-award data collection. And we are 
also going to be launching shortly a new USAspending.gov 
platform.
    Senator Carper. Say that last sentence again.
    Mr. Kundra. We will be shortly launching a new version of 
USAspending.gov.
    Senator Carper. Do you have any idea when?
    Mr. Kundra. Shortly.
    Senator Carper. Around here that can be quite a while.
    Mr. Kundra. In a matter of a month or so.
    Senator Carper. OK. Good. Well, that is music to our ears.
    I am going to yield to Dr. Coburn, but before I do, let me 
just telegraph my next pitch, and I am going to come back and 
ask each of you to talk about some areas that the 
Administration and the Congress ought to be looking into to 
increase transparency and to try to reduce wasteful spending. 
But for now, Dr. Coburn?

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Well, first of all, let me say to all three 
of you I have extreme confidence that you are the right guys 
for the right job. Had you put the same effort into 
USAspending.gov as you put into everything else, we would be a 
lot further down the road right now, wouldn't we?
    Mr. Kundra. Senator, I think we have put tremendous effort 
on USAspending.gov----
    Senator Coburn. I did not say you had not put effort. First 
of all, there is only one of these that is a law, and that is 
the Federal Funding Accountability and Transparency Act. It is 
the law. In fact, we are out of compliance on the law. There 
has not been a report from you all, which is required under the 
law. As a matter of fact, this will be the second year that we 
do not have a report. I hope we get that this time. But it is 
the law.
    The others are mandates by the President, and I applaud 
them, but they have held us up from achieving what we were 
trying to achieve. I have no complaints with your capability. 
But the fact is that right now USAspending.gov is not accurate, 
and it lacks the biggest component that is necessary for 
Americans to truly know what is going on with spending, and 
that is sub-awards and subcontracts.
    The whole idea behind sub-awards and subcontracts was for 
everyday citizens could actually see what is going on. So when 
they saw waste, they could report it. They could be a 
whistleblower. Because we do not have sub-award and we do not 
have sub-grantee, they do not have that ability.
    So we do not really have transparency with the Transparency 
and Accountability Act. I am not here to beat you up. I think 
you guys have worked hard. I think you have done a wonderful 
job with everything that you have worked at. But I am still 
wanting to know when the law is going to be followed.
    Mr. Kundra. Senator, that part of our strategy hinges on 
leveraging the investments that have actually already been made 
with the Recovery Board. And the April 7 guidance will speak 
specifically to how we are going to be addressing the sub-award 
issue, whether it is on the grant side or on the contracting 
side.
    Because of the recovery investments, we are going to be 
further along as we have addressed one of the most complicated 
issues, which is how do you build a nationwide system that is 
going to be able to collect sub-award data, and how do you do 
it in a short time span. And we are going to benefit as we look 
forward in terms of leveraging that infrastructure, given the 
momentum that was behind driving transparency related to the 
Recovery Act.
    Senator Coburn. I do not doubt that, but what you just told 
me is you choose to do this rather than follow the law. When is 
it going to be there? What is the answer to that question? When 
is it going to be accurate? When is the sub-award and sub-
grantee information going to be on there? It is a real simple 
question. And if ``I do not know'' is the answer, ``I do not 
know'' is the answer. We have a law, and the fact is that we 
choose not to follow it. Just like improper payments, we have 
multiple agencies that will not comply with the law because 
they do not think they have to.
    Again, I will compliment each of you. I think you are 
rightly suited for your job. But I tell you what the people of 
Delaware and the people of Oklahoma want. They think if it is a 
law, it ought to get done and it ought to get followed. I have 
been around this place long enough to know that if I do not pin 
people down, it never happens. If April 7 is not going to 
happen, then my hope is the Chairman will have another hearing 
so we can talk about that.
    We are 3\1/2\ years into this, and you may have been dealt 
a mess. I do not know. That is the usual thing that we hear 
from one Administration--it does not matter if it is Republican 
to Democrat or Democrat to Republican. It was not done right. 
But we cannot manage America without that information. You may 
be absolutely right that you have created the infrastructure 
and the base so that we actually will get there in the long run 
better. But part of not complying with the law is explaining to 
us why you are not complying with the law.
    I want to go back--first of all, car seats?
    Mr. Chopra. Yes, sir.
    Senator Coburn. I followed all the rules on them and 
pinched my finger every time. [Laughter.]
    Senator Coburn. I have grandkids, and it is tough.
    Mr. Chopra. It is tough.
    Senator Coburn. But it is designed to be tough so that the 
kid does not go anywhere.
    Mr. Chopra. You are right.
    Senator Coburn. Let me ask you, Mr. Chopra. You said three 
P's: Policy, platform, and public-private partnerships.
    Mr. Chopra. Yes, sir.
    Senator Coburn. Is that being applied to the Transparency 
and Accountability Act?
    Mr. Chopra. Well, I serve in the Office of Science and 
Technology Policy. I do not know to what extent we have been 
actively involved in the OMB implementation of the Act, but we 
are using these principles across a wide range of national 
priorities. I am happy to give you an example of public-private 
partnerships, whatever would be appropriate for you.
    The one that we most recently announced about a month and a 
half ago was in health care, and it focused on an initiative we 
called Text4Baby. Given your background, Senator, to address 
issues surrounding the number of women who lack access to the 
information on appropriate prenatal care to address both pre-
term birth rates that are too high and infant mortality rates 
that in this country are too high. We understood that many of 
the young women in this country have cell phones that could be 
used as a vehicle to convey this information. We did not have 
any government money to spur this kind of collaboration, but 
what we did have was an opportunity to bring an ``all hands on 
deck'' approach. So the cell carriers, through their industry 
trade association, the Consolidated Treaties and International 
Agreements (CTIA), waived text message fees for 2 years. About 
115 partners--nonprofit, for-profit, a whole mix--built content 
and have distributed content three times a week to women in 
need. So 25,000 women are getting this service. We did not pay 
for, but it is an example----
    Senator Coburn. OK. So that is great, but my question was 
about the Accountability and Transparency Act.
    Mr. Kundra.
    Mr. Kundra. In terms of partnering with the public, one of 
the things we have done as we have looked at these platforms 
with the Non-Governmental Organization (NGO) community. For 
example, the Sunlight Foundation launched an independent 
competition and actually created the applications. In my 
testimony, as I talked about FlyOnTime.us, it was a product of 
a competition that the Sunlight Foundation did.
    We have also seen private citizens actually build an 
application. For example, they took their recall data, and they 
built an application that allows you to see on your phone when 
a product has been recalled so you can prevent yourself from 
buying it.
    Senator Coburn. OK. We had two pilot sub-award programs 
that GAO said they were not successful. Are you planning more 
pilots or what is the plan with USAspending.gov?
    Mr. Kundra. So the plan as we move forward is to actually 
leverage the infrastructure that has been deployed, and also to 
go deep in terms of the sub-award data, which is to go to the 
$25,000 limit that has been set to make sure that we can get as 
much of the data out there and roll it up and characterize it 
as possible and make sure that we can also show trends as we 
look at the USAspending.gov.
    Senator Coburn. What is the problem with the sub-award 
data?
    Mr. Kundra. The sub-award data is a pyramid problem. When 
you go down one level, you may deal with 100,000 recipients. 
When you go down the second or the third level, you may start 
dealing with a million, 2 million, 3 million----
    Senator Coburn. Give me an example of a program where we 
have sub-awards that go to 100,000 people.
    Mr. Kundra. So let us say you give out a grant at a State 
level, whether it is at the Department of Transportation or 
whether it is at Health and Human Services, and at a State 
level where you begin to allocate that funding across the board 
and then that is the government recipient.
    Now as you get down to the private sector recipient and 
companies that may start disbursing those funds across the 
board, you end up getting thousands and thousands of----
    Senator Coburn. Yes, but you are not at 100,000 on 
anything.
    Mr. Kundra. Well, I am talking about across----
    Senator Coburn. I know, but let us just take a Department 
of Education grant. There are 50 States, plus Territories, and 
then they may give 100 per State. So you have 5,000. That is a 
small data set. What is OMB's directive to all the agencies 
about sub-awards? Are they told that you have to do this or 
not?
    Mr. Kundra. So we actually issued guidance on sub-award 
data to try to collect that information. The challenge for us, 
as I mentioned before, was also on the technology front, which 
is we did not have a technology platform----
    Senator Coburn. OK. So if you have the technology, then the 
real problem is not going to be technology. The problem is 
going to be compliance.
    Mr. Kundra. Yes.
    Senator Coburn. So what is OMB going to do about 
compliance? Is there any consequence to not following the law 
as far as the Accountability and Transparency Act?
    Mr. Kundra. So what we have already done is we have made 
sure that across the board there is a senior accountable 
official assigned at each of the agencies who is going to be 
accountable for the reporting of that data. And that is what I 
meant when I said there is a faceless accountability in terms 
of everybody was responsible for data quality----
    Senator Coburn. No. I agree. Well, Mr. Chairman, thanks for 
allowing me to go a little bit over on my questioning time. I 
will submit a few other questions to you.
    Anything either of the other of you want to add before I 
finish?
    Mr. Chopra. Well, if I may--I would make two comments.
    One, this Congress did authorize about $37.5 million in 
this year for what we call the Partnership for Program 
Integrity, basically a fund that would allow us to get after 
the issue of federally funded government services that are 
State-administered, locally delivered, and anything in between. 
So my presumption is that a great deal of the architecture and 
the way we can get better data will come out of the grants 
process--to get that money out and to find ways to be more 
efficient. Coming from Virginia's State government, Senator, I 
can tell you our own accounting systems at the State level were 
very difficult, so Federal funds would come in, the State 
systems are often 20 or 30 years old, and their financials 
would only have a few items of information associated with the 
actual dollar figure. Then a separate system altogether would 
administer where the money ultimately went and the ability to 
cross-walk the----
    Senator Coburn. But there is an easy way to fix that. With 
every grant acceptance, a State or an individual signs that 
they will comply, and here is what compliance means. It is 
easy. Then the onus is on them to comply: If you take this 
money, here is what you have to do to comply.
    Let me just share with you a minute until Senator Carper 
comes back. Almost every week, I have a whistleblower that 
contacts my office. Not having sub-grant and sub-award data 
keeps us from eliminating waste in this country. There is $350 
billion a year in waste, fraud, abuse, and duplication in the 
Federal Government right now that I can document. How do you 
get it out? The only way to resolve these problems is to have 
the data there so that when you get a whistleblower and you 
have the data, you do not have to present a significant case 
because it is there already.
    If we can ever get the sub-award and sub-contract data--
and, remember, 98 percent of everybody in this country is doing 
the right thing, but the ones that are costing us are the ones 
like on Medicare fraud and some of these other things, they are 
costing us a ton. When we do not have that data, we cannot 
leverage the information. When we go to try to get the 
information, guess what? Even on the Permanent Subcommittee on 
Investigations, which has subpoena power, unless we subpoena 
it, most of the time we cannot get it, information that should 
already be online.
    So I want you to understand how important this is as a tool 
for us, and looking at what our financial situation is, what 
you guys are doing is more important than anything that I do up 
here every day, what you all are doing because it is going to 
pay far greater rewards and far greater dividends.
    Thank you.
    Senator Carper. Senator Coburn and I are interested, as he 
just reminded us, in trying to ensure that folks are doing what 
they are supposed to be doing. And it is hard for us to police 
every person in government or folks that are not in government 
to ensure they are doing what they need to be doing.
    One of the things that I like to do--and I think he does as 
well--is to try to find ways to incentivize people or agencies, 
people within agencies, to do what they ought to be doing, to 
do the right thing. And one of the things we have focused on 
over the years is trying to ensure that when Federal agencies 
have surplus properties that they do not need, that they sell 
them and get to keep some of the money to help fund their 
programs.
    We are interested in making sure that not only do we have 
agencies stop making improper payments, but actually to 
identify where the money has gone, particularly in----
    Senator Coburn. Would the Senator yield? Just for the 
record, we spend $8 billion on properties we do not want and 
that are empty that the Federal Government owns. Every year. 
There is $8 billion. That will pay for the extender package 
that is coming on to the floor. But yet we are not doing it 
because we do not have all the data.
    Senator Carper. Yes. But one of the things we are 
interested in doing is trying to go out and collect all the 
money that is fraudulantly taken out of Medicare by fraudsters. 
If we allow contract recovery folks to go out and recover the 
money and let them keep a portion of it, then we can 
incentivize them to do a much better job. If we can do the same 
thing with whistleblowers, let them keep some of the money that 
is actually recovered. But the idea is to find ways to 
incentivize--use financial incentives to harness market forces 
and get people to help us do what needs to be done.
    I like to say--and Dr. Coburn has heard me say this once or 
twice--that the role of government is to steer the boat, not 
row the boat, and one of the things that always fascinates me 
is how do we harness market forces to drive good public policy 
outcomes.
    What I want to do is ask you all to take a minute--and I 
will start with Mr. Ferriero and then we will go to the other 
panelists. Are you trying to find ways to use prizes or rewards 
for people to be able to develop a more effective way to use 
agency information? What kind of results are you seeing so far, 
if you will? And is this something that we ought to be thinking 
about expanding in the future? What is your office doing to get 
the word out on these kinds of competitions? Are there ways 
that we can help put a spotlight on these competitions so that 
more people will want to participate?
    Can you all just take a moment and take a shot at that, 
please? Thanks. And, Mr. Ferriero, if you want to respond, you 
are welcome to.
    Mr. Ferriero. Sure. That is part of the Open Government 
plan that is being created now by the Archives, and there is 
the intention of creating within our agency opportunities for 
competition for coming up with new ideas about how we go about 
doing our business. And this is something that is very much why 
I am so excited about the plan, is that it is staff driven, it 
is from the bottom up. And we do not have concrete examples of 
that yet, but it is a definite part of our Open Government 
plan.
    Senator Carper. OK. Thank you. Mr. Chopra.
    Mr. Chopra. Well, Mr. Chairman, that is absolutely a key 
priority for us, and we think that is a terrific tool when 
thoughtfully designed--you cannot just have prizes and 
competition for anything--to achieve pretty dramatic outcomes.
    Senator Carper. How do we do the design there to make sure 
that what we are designing actually is going to be appealing to 
folks whose cooperation we need?
    Mr. Chopra. Well, we have built a community of practice 
that was launched in conjunction with the guidance that was 
released on March 8 so that we could incorporate best practices 
in that model. There are nonprofit and for-profit stakeholders 
who have been experienced in prize design, the most famous 
being the X Prize that is contributing to our community of 
practice. But even beyond, companies like McKinsey, the Joyce 
Foundation, and others have been contributing and publishing on 
best practices and how to achieve the proper design.
    But they run the gamut, so you might have a design to try 
to develop breakthrough new ideas that you had not thought of 
before. DARPA's most recent $40,000 network design challenge 
really allowed us, with a very small amount of money, to think 
about how do these new emerging social networking technologies 
help to advance big challenges. And they had a simple one: Find 
10 balloons that were floated all over the country that all in 
one morning would be up and then brought down by the evening. 
The entire land mass of the United States was in play, and 
through social networking, the winning team built an incentive 
system. Your point about financial incentives? They tiered the 
payment structure to get thousands of people to volunteer to 
look out and invite their friends and neighbors to say, ``Hey, 
where are the balloons?'' In 9 hours, they found all 10 
balloons across the entire land mass.
    Senator Carper. Were they mostly found in Delaware, do you 
think? [Laughter.]
    Mr. Chopra. Actually, I got a map in my head, but I cannot 
think of where it was.
    Mr. Ferriero. But guess where the team was from?
    Mr. Chopra. MIT. A lot of love.
    But I say that because there are prizes that spur new 
thinking, as was this prize. There were prizes that achieved 
outcomes goals where government investment may not be the right 
goal. So we want to help young people learn about healthier 
eating habits. It is one of the First Lady's top priorities in 
her Let's Move! campaign. We do not have a lot of government 
money. Whether we should or we should not--your point about row 
versus steer the boat is a great one. But we found $40,000 in 
modest prize money to spur all this creativity in the gaming 
community and the application development community, to take 
the nutritional information from the Department of Agriculture 
and find a way to help parents make better choices in food 
preparation for their kids and to educate kids on the food 
choices they have.
    There are communities popping up all over the country 
saying, ``Hey, we will sign up and help. We want to be a part 
of this.'' For a very modest investment, you can spur a great 
deal of leverage in behavior.
    I think the point you are making is a good one. How do we 
get this right? The guidance memo that OMB issued acknowledged 
that certain Federal agencies have certain explicit 
authorities. The Department of Defense (DOD), the National 
Aeronautics and Space Administration, (NASA), and the 
Department of Energy (DOE) are explicitly authorized to run 
certain prize competitions. Others do not have some the same 
authorities, but have some other vehicles that might allow 
prize competitions. So we describe this marble cake framework 
for how one actually conducts prizes and competitions, and we 
are looking at ways to hopefully make that a little bit easier. 
And with your partnership and collaboration, Mr. Chairman, we 
would love to engage further.
    Senator Carper. Great. Thanks. Mr. Kundra, the last word.
    Mr. Kundra. And I think when you think of prizes, they are 
not just limited to monetary prizes. So what we have seen is, 
for example, at OMB we launched the President's Security and 
Freedom Ensured Act (SAVE) Award, which is essentially to find 
game-changing ideas to help save money. And there was a woman 
at Veterans Affairs who came up with the idea of saying, well, 
why is it that every time we discharge a veteran from a 
hospital, we throw away the medicine that may be half empty, 
and recognizing that a lot of the talent and energies in the 
front lines, obviously, of the public sector and harnessing 
those ideas and baking them into how we run the government.
    Second is when we launched the IT Dashboard--and we still 
have issues, frankly, around data quality. But what is 
happening is we are getting the American people who are sending 
us e-mails or are coming in and saying, ``Well, why is it that 
you are spending all this money on this particular project? 
Maybe there is a better way, a third way.'' So, really, helping 
improve actually performance.
    And the third area I would say which is looking at how we 
fundamentally change the way we deliver services to the 
American people such as the application I was talking about, 
where someone could create an application using data from the 
Department of Transportation or, as Aneesh mentioned, car 
safety data or looking at data around consumer protection or 
the Food and Drug Administration (FDA) data around foods that 
may have been recalled.
    We are seeing people actually creating all these mobile 
applications that the government would have spent frankly years 
and millions of dollars building. And so we are finding 
mechanisms in terms of using challenges and prizes also to save 
taxpayer dollars as well as find innovative approaches and 
improve performance.
    Senator Carper. All right. It has been a great panel and a 
tough act to follow, but we have some folks sitting behind you 
that are going to give it a shot. We very much appreciate your 
being here, preparing for this and responding to our questions. 
We will have some more questions that we will want to submit 
and ask you to respond to those as promptly as you can.
    Mr. Chopra. Thank you, Mr. Chairman.
    Senator Carper. Maybe at the end of the day we will not 
only provide better transparency but a lot better service for 
less money, and that is a pretty good goal for all of us. Thank 
you very much. Good to see you.
    I would ask the second panel to come to the desk at this 
time, if you would.
    Good afternoon. It is great to see you all. Thank you for 
joining us. There is Steve O'Keeffe going around here with 
crutches, and what is that device on your left foot there? What 
is that? I wore one of those a couple years ago when I broke my 
foot in a race.
    Mr. O'Keeffe. I guess I can remove it soon.
    Senator Carper. Eventually I got to stop wearing it. 
Hopefully you will, too.
    Mr. O'Keeffe. Thanks.
    Senator Carper. Thanks for joining us. Coming off the 
disabled list (DL), as we like to say in baseball, off the 
disabled list.
    I am going to give a brief introduction to our witnesses 
and then ask each of you to proceed.
    Our first witness is Ellen Miller, co-founder and Executive 
Director of the Sunlight Foundation, a nonpartisan and 
nonprofit organization dedicated to the openness and 
transparency of government. Ms. Miller is also the founder of 
the Center for Responsive Politics and Public Campaign where 
she focused her attention on the influence that money has in 
politics. She was named one of the 15 people the next President 
should listen to--I do not think I made that list, but I am 
glad that you did--by Wired Magazine. It is quite an honor, and 
we thank you for joining us today.
    Our next witness is Rob Pinkerton, Director of Public 
Sector Solutions for Adobe Systems. Mr. Pinkerton has an 
extensive background in government and technology, serving in 
both the public and the private sector. Notably, he has been an 
emergency medical response technician in Virginia. Whereabouts?
    Mr. Pinkerton. Henrico County, Richmond.
    Senator Carper. All right. A law clerk in the city of 
Baltimore and a legislative assistant in the U.S. Senate. Who 
did you work with?
    Mr. Pinkerton. Strom Thurmond.
    Senator Carper. Strom Thurmond. Well, we thank you for your 
service and thank you for his, too.
    Our next witness is Steve O'Keeffe, founder of MeriTalk, 
and I am told that MeriTalk is an online community of 
technology experts that focus on leveraging technology to 
improve the way that agencies operate. I understand that you 
have tasked this community of experts to grade the 
Administration leading up to our hearing and that you will 
report back the results today. We thank you for your help.
    Our last witness also has had some experience before our 
Subcommittee. Mr. Blanton is the Director of the National 
Security Archive at George Washington University. Mr. Blanton 
has been a leading national advocate in reforming the way that 
agencies classify and protect information. I understand that 
you have conducted over more than 40,000 Freedom of Information 
Act requests. That is a lot. Mr. Blanton, we thank you and all 
of our other panelists for being here.
    I am going to recognize Ellen Miller to begin her opening 
statement. Just try to keep your remarks within 5 minutes. If 
you get too far beyond that, I will have to reel you in. But we 
are glad you are here. We look forward to your testimony. 
Everything that is in your printed testimony will be made a 
part of the record, and feel free to summarize as you see fit. 
Ms. Miller, thank you.

    TESTIMONY OF ELLEN MILLER,\1\ CO-FOUNDER AND EXECUTIVE 
                 DIRECTOR, SUNLIGHT FOUNDATION

    Ms. Miller. Thank you, Mr. Chairman. Thank you for the 
invitation to be with you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Miller appears in the Appendix on 
page 72.
---------------------------------------------------------------------------
    On a personal note, I want to just mention that 30 years 
ago I was a staffer to this Committee, so I have a particular 
affection for the Committee for which you do your fine work.
    Senator Carper. No kidding. Didn't they have child labor 
laws then? [Laughter.]
    Ms. Miller. They did. The Chairman was Senator Ribicoff at 
the time, and Ranking was Senator Percy. So it was some time 
ago.
    Senator Carper. OK.
    Ms. Miller. I am delighted to be here.
    My name is Ellen Miller, and I am the co-founder and 
Executive Director of the Sunlight Foundation. Sunlight is a 4-
year-old nonpartisan nonprofit dedicated to using the power of 
the Internet to catalyze greater government accessibility and 
openness and transparency. We take our inspiration from Justice 
Brandeis' famous adage, ``Sunlight is said to be the best of 
disinfectants.'' We are committed to improving access to 
government information by----
    Senator Carper. Ms. Miller.
    Ms. Miller. Yes?
    Senator Carper. Please forgive me for interrupting. I have 
just been advised by my staff that on the floor of the Senate 
there has been a move to stop all the proceedings and hearings 
that are going on in the Senate, and we are compelled to stop 
at this point in time. I regret it, but there are rules here 
that unless there is a unanimous consent to proceed for a 
hearing--as you may recall, in the Senate we can only go for so 
long, and then we have to stop our hearings. And the whistle 
has blown, unfortunately, and we and all the other committees 
and subcommittees that are holding hearings have to now at this 
time cease. I feel very badly about that. It is not my doing. 
But we are not going to ask you to stay around, but I am going 
to ask you at some point that it is convenient for you and for 
us, we are going to ask you to come back and have an 
opportunity to hear from each of you.
    So with that having been said, maybe after the start of 
recess, we will be able to hold these hearings in a way that we 
would like to. But I am going to have to adjourn at this point 
in time.
    Again, my apologies, Ms. Miller. Thank you, Mr. Pinkerton, 
thank you, Mr. O'Keeffe and Mr. Blanton.\1\
---------------------------------------------------------------------------
    \1\ The hearing was adjourned before these three witnesses made 
their statements. The prepared statements for Mr. Pinkerton, Mr. 
O'Keeffe, and Mr. Blanton appear in the Appendix on pages 75, 79, and 
85, respectively.
---------------------------------------------------------------------------
    Mr. Blanton. Thank you, Senator.
    Senator Carper. I have had a chance to look through your 
testimonies. You have a lot to offer, and we want to be able to 
have not just those of us who have read your testimony benefit 
from it but a lot of people who have not.
    So that having been said, again, our thanks to you and I 
apologize to you for any inconvenience that this may have 
caused for you, and I look forward to seeing you again soon. 
Thank you very much.
    With that, the hearing is adjourned.
    [Whereupon, at 4:06 p.m., the Subcommittee was adjourned.]


                    REMOVING THE SHROUD OF SECRECY:
                   MAKING GOVERNMENT MORE TRANSPARENT
                        AND ACCOUNTABLE--PART II

                              ----------                              


                        TUESDAY, APRIL 13, 2010

                                 U.S. Senate,      
        Subcommittee on Federal Financial Management,      
              Government Information, Federal Services,    
                              and International Security,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Subcommittee, presiding.
    Present: Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Good afternoon. This is a little bit like 
church. In church, you have the pews up front and the pews in 
back. The pews up front are always empty, and if our witnesses 
will turn around, you will see what I mean. The folks are 
sitting in the back pews there. Some of them look kind of 
young. I do not know where you ladies and gentlemen are from. 
Where are you all from? Well, this is like ``American Pie.'' 
This is good. [Laughter.]
    We are glad you are here.
    To our witnesses, this group has your back.
    Mr. Blanton. Thank you.
    Senator Carper. Our Subcommittee will come to order, and 
our thanks to our guests and our witnesses for being here 
today. For the next hour or so, we are going to discuss ways 
that President Obama and his team of Open Government experts 
can reshape both old and inefficient bureaucratic agencies into 
lean, not so mean, citizen-focused machines. And we had hoped 
to hear from our panel of witnesses today a couple of weeks 
ago, but there were larger issues at play, and unfortunately we 
had to take a rain check. As I recall, we had to basically stop 
our hearing. There is a procedure, a process in the Senate that 
at the beginning of the legislative day, the Majority Leader or 
his or her deputy will ask unanimous consent for the committees 
to meet beyond a 2-hour limit, and if we do not get that 
unanimous consent, we cannot meet. And the unanimous consent 
was sought, was refused, somebody objected from the other side, 
and as a result, we had to close down all of our committee 
hearings throughout the Senate abruptly. And we apologize again 
for the disruption. We are just glad that our witnesses were 
willing to come back, and nobody objected today so we can all 
be here.
    But before our hearing ended last month, we were able to 
hear from one panel, and that was from the administration's top 
officials who are leading the Open Government Initiative. I 
applauded them then and I will do so again today. The 
Administration released guidance to reduce wasteful agency 
spending to make senior leaders more accountable and to 
improve, we hope, the lives of everyday Americans.
    It should not be a talking point anymore that agencies 
should be as transparent and accountable as possible, and 
change needs to start at the top. When I was the age of these 
old people sitting--actually, these young people sitting out in 
the audience, to say to somebody that they were transparent was 
not a compliment, and it is interesting today that we want our 
agencies, we want those that are serving us, we want our 
legislative process, we want our leaders to be transparent in 
what they are trying to do. So what was not a compliment a few 
years ago is today. We are very much attempting to be 
transparent.
    Now that we have an opportunity to hear from our panel of 
outside experts, I hope to finish the discussion we started a 
couple of weeks ago and learn in what areas the Administration 
is doing well, what areas may need some more attention, and 
more importantly, how making agencies more open and transparent 
will make the lives of 300 million Americans a little bit 
better.
    Just to recap why this hearing is important, every year 
agencies spend nearly $1 trillion--think about that, $1 
trillion--on contracts, grants, and loans. Yet it seems like 
every week or so we receive another report from outside 
watchdogs--actually, they are kind of like inside watchdogs, 
but the Government Accountability Office, which is a Federal 
agency, or from an agency's Inspector General outlining 
significant wasteful and inefficient spending. You expect some 
of that with an operation as big as the Federal Government, but 
there is plenty of waste that still goes around, and the folks 
at GAO and the Inspector Generals help us to identify that. But 
at a time when a lot of Americans are trying to keep from 
losing their jobs or avoid foreclosure on their homes, we in 
the Federal Government, need to lead by example and not by 
exception.
    I like to tell my staff, if it is not perfect, make it 
better, and try to focus on doing everything well. I believe 
that phrase can be applied here. There is more that both the 
Administration and the Congress can do to make sure that we are 
spending Americans' hard-earned tax dollars wisely, and we need 
to work together to get it done. The American people demand it.
    In closing, I just want to add that as we discuss all of 
the new and exciting initiatives that the Administration has 
under way or plans on undertaking in the near future, we ought 
to keep our eye on the ball. Our job does not just end at 
making information freely available, but in making sure that 
information can be effectively used to improve services to 
every American, to reduce wasteful spending, and to enforce 
accountability.
    Again, our thanks to our witnesses of this panel, one of 
whom showed up wounded--he is coming off the DL, the Disabled 
List--to be here with us today, and we are grateful for that.
    My statement says I will now recognize Senator McCain for 
his opening statement, but he has not joined us yet, and he may 
during the time that you all are here, and I hope so. And if he 
can, we will recognize him when he arrives.
    Again, thank you. Your entire statements will be made a 
part of the record, and I will just ask maybe, Mr. Wonderlich.

  TESTIMONY OF JOHN WONDERLICH,\1\ POLICY DIRECTOR, SUNLIGHT 
                           FOUNDATION

    Mr. Wonderlich. Chairman Carper, thank you again for the 
opportunity to appear before you today. As you said, my name is 
John Wonderlich, and I am the Policy Director for the Sunlight 
Foundation. The Sunlight Foundation is a nonpartisan nonprofit 
dedicated to using the power of the Internet to catalyze 
greater government openness and transparency. We take our 
inspiration from Justice Brandeis' famous adage, ``Sunlight is 
said to be the best of disinfectants.''
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wonderlich appears in the 
Appendix on page 89.
---------------------------------------------------------------------------
    We are committed to improving access to government 
information by making as much of it as possible available 
online. Indeed, we believe it is important to redefine 
``public,'' as in the phrase ``public information,'' as meaning 
online. We focus on creating databases and new tools and 
Websites to enable citizens to get the information they need to 
be informed participants in our democracy. We believe that 
transparency and openness are essential foundations for public 
trust and that without the former, the latter cannot survive.
    The Internet is making increased transparency cheaper, more 
effective, and in higher demand every day as Americans come to 
expect instantaneous and constant access to all kinds of 
information. Given the rapid technological advances in how 
information can be captured, stored, analyzed, and shared, this 
is the time for government to rethink how it makes information 
available.
    There are three core principles for establishing an open 
and transparent government:
    First, transparency is government's responsibility. 
Transparency must, first and foremost, be understood as the 
responsibility of our government since private and nonprofit 
responses can only reach so far.
    Second, public means online, so whenever the government has 
committed to making information public, the standard for public 
should include freely accessible online. Information cannot be 
described as truly public if it is available only inside a 
government building, during limited hours, or for a fee.
    Third, data quality and presentation matter. The Internet 
has redefined effective communications and publishing, and it 
is now an around-the-clock open medium in which now standard 
practices include continuous dissemination, permanent 
searchability and reusability, and other key features.
    So why are these improvements in government transparency so 
important? First, transparency is the basis for informed 
participation in self-government. The public has rising 
expectations of greatly expanded access to government 
information so that they can play a fuller role in 
understanding, evaluating, and participating in the workings of 
their government. Our role as citizens is only as strong as our 
government is open. This idea is not an abstract, distant kind 
of public good. The actions that make up our civic lives--
informed voting, active participation or analysis--these all 
depend on access to public information. Without that 
connection, citizens are left disconnected and dispirited, and 
substance and dialogue are replaced by apathy and divisiveness.
    Second, online transparency can create accountable and 
efficient spending, something that governmental bodies and 
cities and States and here in Washington are just now starting 
to discover.
    Third, when government makes data public, it can foster 
whole new businesses or industries. President Obama's Open 
Government Directive recognizes this potential, noting that 
information that make ``create economic opportunity'' should be 
given special priority.
    And, fourth, and perhaps most importantly, open and 
transparent government is accountable government. Open 
information allows us to check what government is doing with 
our tax dollars and for whom.
    Sunlight's vision is one of a rich, vital public sphere 
where politics is driven by dialogue and fact and merit drives 
decisionmaking in government. In that spirit, we are pleased to 
help shape the new policies and technology that will allow us 
all to benefit from a stronger democracy, creating new 
platforms and databases to inform and engage citizens, 
empowering journalists, lawmakers, and public officials, 
investing in our social infrastructure to demand and make 
better use of government information, and advancing the bold 
and responsible policies that will ultimately open our 
government.
    Thank you very much, and I am happy to answer any 
questions.
    Senator Carper. That is your story and you are going to 
stick to it?
    [Nodding affirmatively.]
    Senator Carper. Good enough.
    I failed to introduce Mr. Wonderlich before he began 
speaking, and I will just say just a couple things.
    Is it true that you are the Policy Director at the Sunlight 
Foundation?
    Mr. Wonderlich. Correct.
    Senator Carper. And is it true that the Sunlight Foundation 
is a nonpartisan, nonprofit organization dedicated to openness 
and transparency in government?
    Mr. Wonderlich. Sounds right.
    Senator Carper. All right. Is it true that in this capacity 
you work with the Congress, you work with agencies, and the 
public sector to develop smarter policies that help reform bad 
government practices?
    Mr. Wonderlich. Indeed, yes.
    Senator Carper. And that is why we asked you to be here 
today.
    Mr. Wonderlich. Thank you.
    Senator Carper. Thank you.
    Our next witness is Steve O'Keeffe, founder of--do you call 
it MeriTalk? You founded it, didn't you?
    Mr. O'Keeffe. I did.
    Senator Carper. How long ago?
    Mr. O'Keeffe. Two years ago.
    Senator Carper. Two years ago. And before that?
    Mr. O'Keeffe. I had been working in the public-private 
domain for about 20 years.
    Senator Carper. Where did you learn to speak English?
    Mr. O'Keeffe. That was in London.
    Senator Carper. OK. You speak it better than the rest of 
us, I think.
    Mr. O'Keeffe. Well, differently, maybe.
    Senator Carper. I did an interview this morning on Fox 
Business Network, and the guy who was interviewing me was 
British. He kept asking me, ``What are you saying?'' 
[Laughter.]
    He was wondering what I was saying. No, we actually had a 
Kumbaya moment. We actually agreed on some things. It was 
pretty amazing for both of us.
    I am told that MeriTalk is an online community of 
technology experts that focus on leveraging technology to 
improve the way that agencies operate. I understand that you 
tasked this community of experts to grade the Administration, 
give them a grade leading up to our hearing, and that you will 
report back the results today. And I just have one question 
before you start: Do you grade on a curve?
    Mr. O'Keeffe. No, it is not graded on a curve.
    Senator Carper. OK. Fair enough. All right. Well, good. You 
are recognized. Please proceed. Thanks again for being here.

    TESTIMONY OF STEPHEN W.T. O'KEEFFE,\1\ FOUNDER, MERITALK

    Mr. O'Keeffe. Chairman Carper and Subcommittee Members, 
thank you for the opportunity to speak to you here today. My 
name is Steve O'Keeffe, and as you mentioned, I am the founder 
of MeriTalk, the government IT network. MeriTalk is an online 
community that fosters public-private collaboration and 
dialogue in the government IT community.
---------------------------------------------------------------------------
    \1\ The prepared statements of Mr. O'Keeffe appears in the Appendix 
on pages 79 and 93 respectively.
---------------------------------------------------------------------------
    First, I would like to congratulate you on the innovative 
format for this hearing, breaking it into two parts. Seriously, 
while the separation between government and industry panels was 
unorthodox----
    Senator Carper. I just want you to know, Mr. O'Keeffe--
forgive me for interrupting, but I just wanted you to know the 
room is just emptying out. [Laughter.]
    Moments after you started to speak, everybody got up and 
began to leave. But we have a new group from Delaware that are 
here to bolster you and they are here to cheer. So go right 
ahead.
    Mr. O'Keeffe. It is probably because they cannot understand 
me. [Laughter.]
    So just to say, apart from everybody leaving, I wanted to 
congratulate you on the unorthodox format for this hearing, 
breaking in into two parts. Here we are in the reloaded 
session. While it was unorthodox, it did provide us the 
opportunity, candidly, to connect with some of the people who 
spoke in the first panel, the government experts, and engaged 
in some very meaningful dialogue. Just last week, I met with 
Vivek Kundra at OMB and with Mike Wood at the Recovery Board. 
We reviewed the results of the MeriTalk Ogov Study, which I am 
going to present in a minute or two here, and exchanged 
perspectives that will help shape the path forward on both 
sides of the equation, both government and industry, real, 
meaningful public-private dialogue. Perhaps this should be the 
format going forward. We should stop every hearing halfway and 
reload it.
    Senator Carper. Did you happen to engage them once the 
hearing had to stop? Is that when you all had a chance to talk?
    Mr. O'Keeffe. Yes.
    Senator Carper. How fortunate. That is great. We may want 
to do that more often.
    Mr. O'Keeffe. I think it could be the new thing.
    Senator Carper. It could be.
    Mr. O'Keeffe. So I would like to begin by noting that 
President Obama's Open Government Directive is not a stroke-of-
a-pen initiative. If you will pardon the hyperbole, it is 
analogous to President Kennedy's challenge to go to the Moon in 
1961. Nobody expected to see a spaceship take off one year 
after the announcement, and if they did, I would put it that 
few people would have jumped on board to ride that spaceship 
just one year after the announcement. Many of us have had the 
opportunity to ride on the Open Government Apollo 1, and I 
think we have had some mixed experiences, candidly.
    Just over a year ago, after the signing of the Open 
Government Directive, Open Government is getting mixed reviews. 
In my written testimony, I talk about some of our firsthand 
experience trying to build applications on top of the first 
version of the IT Dashboard from OMB as well as for searching 
for content on Recovery.gov. I guess the net of our experience 
was that it was pretty frustrating. If I might, the juice just 
really was not worth the squeeze once we had gone through the 
process.
    That said, seeing as this is an Open Government hearing, we 
thought it would be appropriate to bring the community's voice 
into this hearing, so that is why we hosted the Ogov Survey on 
MeriTalk prior to the initial hearing to get the community's 
read on how we are doing in Open Government. And with that, let 
me present a couple of slides here.\1\
---------------------------------------------------------------------------
    \1\ The slides presented by Mr. O'Keeffe appears in the Appendix on 
page 82.
---------------------------------------------------------------------------
    The first is we asked, Do you think the government is more 
open today than it was when President Obama took office? And 
while 53 percent say yes, there is a surprising number of 
people that think that, no, the government is not more open, 
and also a significant number that think that they are not sure 
whether it is more open or not.
    Senator Carper. Interestingly enough, I saw some polling 
data today at a luncheon presentation, and the President's 
favorables and unfavorables or uncertains kind of reflect those 
numbers right there. Isn't that interesting?
    Mr. O'Keeffe. Yes, it is. Well, hopefully we can get the 
Open Government--send them an op and hopefully get the 
President's approvals up. That would be great.
    Do you feel that Open Government is providing----
    Senator Carper. I am glad you got that in before Senator 
McCain joined us. [Laughter.]
    Mr. O'Keeffe. There will be more people leaving the room.
    We asked: Do you feel that Open Government is providing you 
with a voice in how government works? And you will see that 58 
percent of the sample say no, which is interesting. So when we 
look at this notion of Open Government as a way for citizens to 
have a say in how their government operates between elections, 
we are not really meeting that requirement right now. I think 
that is an important point.
    These are just a few of the questions that we put. We 
asked: How would you grade OMB's IT Dashboard? And what we see 
is only 4 percent give that Dashboard an A grade. When I sat 
down with Vivek Kundra, he was keenly interested in this 
feedback. You will see that 37 percent give it a C grade and 21 
percent give it a D grade. So there is a lot of room for 
improvement.
    One of the things that I think was very encouraging is a 
very open path in terms of discussion about what the feedback 
is. There is no denial from the executives.
    We asked: What was the biggest challenge to Open 
Government? And the No. 1 point here was management resistance 
to transparency--hardly a huge shock. Obviously, we are trying 
to introduce new ideas, and so I think we need a lot of 
evangelism inside the government and talking about the 
requirement to civil servants about the requirement to do this 
because this is a new way of looking at things.
    Another point here, 16 percent said the absence of a proven 
model and infrastructure for real citizen engagement, so 
looking at all this Web 2.0 stuff where we are looking at how 
to put that together as it evolves provides something that is 
really valuable.
    And then we asked: Should the government execute research 
to identify what citizens like and dislike, what they want and 
need from Open Government? So if the government is building a 
product, which is a new role for the government, it will be a 
great idea first to have some understanding of what citizens 
are looking for in Open Government rather than just building 
what we think, if that makes sense.
    So as I mentioned in my opening comments, I had the 
opportunity to sit down with Vivek Kundra at OMB and with Mike 
Wood at the Recovery Board since our first hearing. Both of 
these executives were keenly interested in the results of the 
MeriTalk Open Government Study and, importantly, open a 
dialogue about how to improve the state of Open Government.
    Vivek Kundra advised that OMB has made significant upgrades 
to its IT Dashboard since we looked at it last year. We talked 
about the opportunity for better communication with the 
community on the site's functionality as very important.
    That said, we took a look back out on the site, and we did 
find that the platform has much improved. I would like to 
present just a couple of slides from that to show the kind of 
data that is available today on the site. The data is there, 
the analysis we provided, and there is significant opportunity 
for public-private partnership going forward in this area. So a 
couple of quick slides.
    This is the first slide looks at what the government's 
information technology and management spend.\1\ This is $40.2 
billion with a ``b'' each year. And so what we see here is that 
64 percent of that spend is going on maintaining legacy 
systems. So keeping up expensive legacy systems, and in many 
circumstances we might perhaps be better off looking at 
modernizing rather than trying to put Band-Aids on the existing 
systems. And this speaks to cloud and many other initiatives 
looking at modernizing government's IT infrastructure.
---------------------------------------------------------------------------
    \1\ The slide referenced by Mr. O'Keeffe appears in the Appendix on 
page 83.
---------------------------------------------------------------------------
    We break out here by DOD and civilian, and what you see on 
the first chart there on the left-hand side is that DOD spends 
significantly less on maintaining the old than the civilian 
agencies, so maybe there is a way to look at accelerating that 
modernization and taking a leaf out of the DOD's book.
    The next and final slide that I will show you is a further 
breakdown of that data, and what this shows is information 
infrastructure maintenance, information management, information 
security spending.\2\ The red is information security spending, 
and you will see that far and away the lion's share of 
information security spending is happening in the Department of 
Defense. There are red portions on each of these civilian 
government's charts, but it is so marginal that you really 
cannot even see it. So sometimes graphing data provides new 
insight, and our intent is to look at taking data that is being 
published by the government and repackaging it in fashions that 
will provide applications and value for the American public.
---------------------------------------------------------------------------
    \2\ The slide referenced by Mr. O'Keeffe appears in the Appendix on 
page 84.
---------------------------------------------------------------------------
    Mr. Wonderlich talked a little bit about this notion of the 
private sector providing additional value-added, and we very 
much support that notion.
    We are currently in dialogue with a series of Federal 
agencies to ground source some of the numbers that we pulled 
from the Dashboard to find out whether they are indeed 
accurate, and so we look forward to continuing that dialogue 
and proving that out.
    Thank you for the opportunity to testify today, and I await 
your questions.
    Senator Carper. Thank you. I thought your colleague who 
helped with the presentation on the charts just did an 
exceptional job. [Laughter.]
    Do you want to introduce her?
    Mr. O'Keeffe. Yes, this is Lauren Walker. She is really the 
brains of the outfit and helps out in all circumstances.
    Senator Carper. I was watching her from time to time during 
your presentation. I could just barely see her lips move when 
you spoke. [Laughter.]
    You guys are pretty good at that. Thank you.
    Our last witness is actually somebody we have seen around 
here before and we welcome him back: Thomas Blanton is the 
Director of the National Security Archive at George Washington 
University. Mr. Blanton has been a leading national advocate in 
reforming the way that agencies classify and protect 
information. We are pretty good at overclassifying, as I 
recall.
    Mr. Blanton. Yes, sir.
    Senator Carper. And as I stated during last month's 
hearing, I understand that you have conducted more than--is it 
40 Freedom of Information requests? Is it 400?

  TESTIMONY OF THOMAS BLANTON,\1\ DIRECTOR, NATIONAL SECURITY 
                            ARCHIVE

    Mr. Blanton. Forty thousand.
---------------------------------------------------------------------------
    \1\ The prepared statements of Mr. Blanton appear in the Appendix 
on pages 85 and 97 respectively.
---------------------------------------------------------------------------
    Senator Carper. It is 40,000. That is probably more than 
anybody around--well, maybe not, but that is a lot of 40,000 
Freedom of Information requests. I can hear them say, ``It is 
him again. It is Blanton again with another FOIA request.'' 
That is a lot. I do not know if you get paid by the FOIA 
request, but if you did, you would be well off.
    Mr. Blanton. The pharmaceutical industry does about 10 
times as many.
    Senator Carper. OK.
    Mr. Blanton. We are just a small nonprofit media outfit 
trying to keep the government open.
    Senator Carper. OK. Well, we are glad you are here, and 
thanks for joining our panel again today. I want to apologize 
for your having to come back, but we are glad that you are 
willing to. And as Mr. O'Keeffe suggested, maybe some real good 
has come out of the fact that we were disrupted last time and 
had a chance to have a dialogue that otherwise would not have 
occurred.
    Mr. Blanton. I would echo that, Mr. Chairman.
    Last time I actually got to personally congratulate Vivek 
Kundra on the CIO Council winning the Rosemary Award, named 
after Rosemary Woods for her infamous 18\1/2\-minute gap in the 
Watergate tapes. And we gave it to them this year, to the Chief 
Information Officer Council, because although they have been in 
charge of best practices for government's IT, all that spending 
that Mr. O'Keeffe is talking about, since 1996 they have never 
addressed the crisis in electronic records and e-mail 
preservation. And if they cannot on the front end of those 
billions and billions put in the preservation and access piece, 
then none of us are going to have any documents to FOIA request 
for down the road, and we will not know what our own government 
has done.
    So your hearing last time gave me the opportunity to give 
him my own personal congratulations, but that is the least of 
it. I just want to make three points today, Mr. Chairman. One 
of them is just the importance of this process and this hearing 
and this follow-up, because by calling Vivek Kundra, Aneesh 
Chopra, and David Ferriero last time, you actually forced some 
decisions on them. They had to face up and push the agencies to 
come up with tangible deliverables and to be able to come here 
and tell you we are doing something really positive here. You 
have the bully pulpit, and your role, I think, is truly 
essential to the progress that we are already seeing.
    I think that is my second point. I am more optimistic today 
than I would have been on March 23 if you had me on the panel 
right after them. And the reason why is between March 23 and 
today, those agencies have all deposited their Open Government 
plans on the public. And it is a fascinating process to see the 
bureaucracy itself churning. They have been ordered to do so by 
the President, by the Office of Management and Budget, and they 
have actually created interagency processes where some of their 
best and brightest are trying to come up with ways to make 
their process more open to the public. They have systems that 
are trying to identify those high-value data sets they can put 
out there. You see this bureaucratic motion happening, and 
change will come of that.
    But that is really the third point, which is we are not 
there yet. It has not changed. Maybe the wheels over at the 
White House--this is Norm Eisen . He likes this metaphor. He 
says, ``We have turned the wheel all the way over with our 
directives and our orders and our guidance and the memos and 
Day 1 pronouncements by President Obama. But it is a super 
tanker, and so the ship is just barely moving like this.''
    Well, I am here to tell you today is not a super tanker. It 
is actually a fleet. And there are aircraft carriers and there 
are dinghies, and we have actually found a couple of rowboats, 
too. And let me tell you, they have no radio equipment to be in 
touch with the White House, and they do not know what is going 
on, and they have not received the word yet.
    What we released last month was our eighth audit 
governmentwide of how Federal agencies are responding to 
Freedom of Information requests, and we did a real simple 
thing. The President had put out a directive on his Day 1 in 
office for agencies to get more responsive, change your Freedom 
of Information practice. The Attorney General then in March for 
Sunshine Week last year put out specific guidance to all the 
agencies saying: Change your FOIA practice, your regulations, 
and your training materials.
    So we did a simple thing. We filed Freedom of Information 
requests with all 90 major Federal agencies, said: Show us. 
What did you change? Give us a copy of your regs before and 
after. Give us a copy of your training materials. Give us a 
copy of your guidance. Give us a copy of anything that you 
changed in response to the President and the Attorney General. 
And I can tell you today 13 out of 90--only 13 out of 90--
Federal agencies made any concrete change to their actual FOIA 
practice in that first year.
    Now, why I am more optimistic. That made headlines across 
the country on March 15, and the headlines were, ``Report 
faults Obama's efforts at transparency,'' or ``Agencies lag 
Obama message.'' That was Monday morning.
    Tuesday morning, the White House Chief of Staff and the 
White House Counsel sent a memo to all 90 agency heads saying: 
Remember us? Change your Freedom of Information guidance, 
practice, regs, and show it to us.
    Twenty-four hour responsiveness, and that is, I think, Mr. 
O'Keeffe's experience talking to Mr. Kundra and others in this. 
They are not defensive about it. They want to change it. They 
need us pushing to change it. They need you holding oversight 
hearings to change it. They need agencies to get why it is in 
their interest and the taxpayer's interest to be more open. And 
that combination of pressure can actually make the change. But 
diversity of agency response is the great challenge.
    We are right in the middle today, with 
Openthegovernment.org, Mr. Wonderlich's great outfit as well, 
where we are looking at all those Open Government plans and 
saying what is real, what is Memorex, what is really going to 
be a change, and what is just promises for the future. And it 
is a fascinating diversity because some of them are really 
impressive.
    In my written statement, I describe my colleague Gary Bass 
has highlighted the Department of Health and Human Services and 
saying this is a really impressive Open Government plan. They 
have tangible high-value data sets they are going to have out 
by the end of the year. They have done this on their flagship 
initiatives. This is great.
    Others of those plans just say: Well, something? We are 
going to keep planning to write this plan. We will plan on 
planning, and we will plan some more, and then maybe we will 
plan again and we will give you the plan. And that is great, 
but it is not openness.
    You can see how frustrating it must be if you are sitting 
at the White House and you are trying to turn the ship or 
change agency practice. Our first governmentwide audit was 
whether Attorney General John Ashcroft back in 2002 had changed 
the way Freedom of Information requests were responded to. And, 
again, he sent out this memo saying, we at the Justice 
Department will defend you if you can find any reason to 
withhold information from the public, we will defend you.
    So we asked the agencies: What did you change? Fascinating. 
Four or five agencies actually had written memos from their 
counsel's office to their program people saying this is the end 
of the Freedom of Information Act, you do not have to respond 
to anymore requests. The vast majority of agencies, 30 or 40 of 
them, just sent a copy of the memo out to their field offices, 
but did not actually change their own regs or practice. And 
then there were four agencies that wrote us back, and they 
said: Excuse me. What Ashcroft memo was that? Could you send us 
a copy? We never got that one.
    I can tell you, every agency has gotten the Obama memo and 
the Holder memo, and you can see it in just the responsive 
process on the FOIA requests, and you can see it in the 
responsive process to the White House. But change, it is still 
in the future.
    So let me just end with a suggestion. We are in the middle 
right now of this evaluation of agency Open Government plans, 
which is sort of where the rubber meets the road. My bet is by 
the end of this month or certainly by the first or second week 
of May, Openthegovernment.org is going to publish our rankings, 
ratings, and evaluations. We are all volunteering. We have a 
whole network of people all pitching in, taking this or that 
agency, looking at it against a set of criteria. ProPublica 
just won the Pulitzer Prize yesterday. They are pitching in on 
this, too. A lot of us are doing it.
    I have a recommendation for a hearing that when those 
ratings are done, you not just invite Openthegoverment.org to 
present the evaluations, but you pick the two best agencies and 
the two worst agencies and have their chief information officer 
come in, their chief Freedom of Information officer, maybe 
their deputy head of the department, maybe even the Cabinet 
Secretary, and tell you why are you so good, what is your 
lesson, what is your best practice, and why are you so bad. And 
I tell you, I think you will see direct change coming out of 
that subcommittee hearing.
    I really appreciate your attention to these matters. It 
matters so much, and I look forward to working with you in the 
future. Thank you, Senator.
    Senator Carper. Thanks. Thanks very much for your comments 
and your counsel, and thanks for your advice on----
    Mr. Blanton. For what it is worth.
    Senator Carper. It is going to be a pretty interesting 
hearing. I have a couple questions for individuals, but I have 
a question or two for the full panel. The first question I am 
going to ask is for the entire panel, and I do not care in what 
order you respond, but I would like for everybody to share at 
least one thought on it.
    One of the reasons we ask two panels to testify is to, 
first of all, provide Administration witnesses with an 
opportunity to really set the stage or attempt to set the stage 
about what we are actually working on; and then we invite a 
second panel of outside experts--that would be you--to provide 
us some food for thought, to provide just outside-the-box ideas 
and observations. In essence, your job is to let us know what 
the Administration ought to be thinking about going forward or 
perhaps what they could be doing better. And you have mentioned 
a number of those already here today.
    Can each of you tell me two or maybe three areas where my 
staff or I ought to focus on to help the Administration reduce 
wasteful spending and to improve services to the people we work 
for? Maybe two, maybe three ideas for our staff. What can we do 
to help make sure that the Administration reduces wasteful 
spending and improves services to our citizens?
    Mr. Blanton. All right. You started right in this direction 
at the last hearing, and I was really impressed that both you 
and Senator Coburn pressed Vivek Kundra on, OK, when is the 
subcontracting information going to be up there, and that is a 
great step forward because that is where the competitors are 
going to be able to see what the other folks are up to. That is 
where you are going to level the playing field some on both the 
procurement side but also on the effectiveness side, which is 
what your questioning goes to.
    It is interesting to me--and I still remember the Obama-
Coburn bill, or was it Coburn-Obama bill? And it seemed like--
--
    Senator Carper. Or in Delaware it was the Carper-Obama-
Coburn bill.
    Mr. Blanton. I stand corrected, Mr. Chairman.
    Senator Carper. No. Senator Coburn was the lead.
    Mr. Blanton. It seemed to me that there was a meeting of--
--
    Senator Carper. Barack Obama was just a mere mortal.
    Mr. Blanton. Just a junior Senator then.
    Senator Carper. He was a new guy.
    Mr. Blanton. It seemed to me there were two theories of 
governance that came together in that bill, and one theory from 
Senator Coburn is that the more people see of what the 
government spends, the more they will see the waste, the fraud, 
and the abuse, and they will demand that it stop. And there was 
another theory of that government spending which is that if 
people can actually see--it is that old notion of when people 
only vote for bond issues for a school when you can see what 
the money goes to. If you see what it goes to and you have got 
some built-in accountability so that there is counterpressure 
against waste, people might actually support it. They might 
actually want it. And it seems to me that argument is a 
perpetual argument in the American system. I still remember--I 
think Bill Moyers said the American eagle has two wings, a 
right wing and a left wing. It is a permanent argument, right? 
And that is great because that is a dynamic tension. But the 
commonality is that transparency is the key that will lead to 
those greater services. You can get to that subcontract data. I 
know it is required by law. I think it is supposed to be all up 
by October. Is that correct?
    Senator Carper. I think so.
    Mr. Blanton. Yes. Then I think we are a big step along the 
way. I think if you can also reinforce this whole Open 
Government process, because I really do see a level of new 
energy in the bureaucracy, now that they have deadlines that 
are set, now that they have been tasked by the President and by 
the budget folks, they are producing some ideas. Some of the 
ideas are terrible. Some ideas do not go anywhere. Some of them 
could really be best practices that will directly, I think, 
address what you are trying to achieve.
    Senator Carper. OK. Thank you.
    Mr. Wonderlich. So when the Open Government plans were 
released on the January 7, 2009, my organization looked 
specifically at the component of each agency's Open Government 
plan and how well they fulfilled the requirement to inventory 
existing data, high-value data, and identify future data to be 
available for download. And what we found was, I think, what we 
expected, and that is, very mixed results. Just as Mr. Blanton 
was describing, President Obama's clear political will to open 
up the Executive Branch translates into mixed results when you 
look at real change within the agencies. So through the lens of 
did agencies identify high-value data, the results are clearly 
mixed, and I think we can see some of the limitations of a 
concrete requirement like Mr. Blanton was describing.
    So the first point I would make is to look into the idea of 
data inventories. On top of the current Open Government 
Directive, there are existing statutory requirements for 
agencies to list all the information that they have that has 
been largely ignored for a decade or more. So I think the idea 
of telling the public what is knowable about an agency is a 
very powerful one, and that is why my organization is focused 
on it.
    Now, beyond the idea of the concrete requirement, I think 
one of the untold stories of the Open Government Directive is 
this idea of encouragement and brainstorming and collaboration. 
So in the last few days, the White House released this stretch 
criteria document which is bonus criteria or things that the 
agencies should do to move beyond what the directive requires, 
and I think that is a very unusual and laudable move for the 
White House to say: You know what? Our directive is not 
comprehensive and it does not go far enough. But that is not a 
failure. In fact, we are encouraging agencies to think about 
what should come next. And so I would encourage you and your 
staff to perhaps connect with the idea process that is 
happening across agencies and some of these working groups that 
are not just thinking about what the requirements are now but 
what they should become maybe in a 3-year time frame. I think 
there is a lot of really valuable work being done there.
    Then the third thing is I would encourage--and this is very 
much along the lines of what Senator Coburn was talking about 
at the first part of this hearing, that the problems that 
plague USAspending.gov and, by extension, the Recovery Website 
I think are much deeper and endemic issues than just building a 
Website, so questions of what kind of financial reporting 
systems have to be rebuilt from the ground up in order for the 
FFATA bill to actually come to fruition. I think that is a 
longer-term question that is going to take real effort to 
address and the one that we are looking into finding answers 
for.
    Senator Carper. OK, thanks very much. Mr. O'Keeffe.
    Mr. O'Keeffe. I will make a couple points.
    Senator Carper. Do you agree with anything they have said?
    Mr. O'Keeffe. Not at all, no.
    Senator Carper. OK. [Laughter.]
    Mr. O'Keeffe. Yes, of course. Got to keep us awake. But I 
think that the focus is very much on what data the government 
is publishing, and I think one of the things we have to look at 
is what data is America interested in consuming, and so I think 
more research on who is interested in this data and what kind 
of information we should be putting out is very important.
    I spent about a year or so working in the Department of 
Homeland Security in the National Cyber Security Division, and 
at DHS we launched a thing called the National Cyber Alert 
System, and it was a subscription-based service where you could 
log on to find out what problems were happening on the Internet 
and what might affect your computer. There were two different 
systems, two different levels. One of them was a technical 
level. That was for technical people. And then one was a 
regular level for regular people. And so what I would do is I 
would get these messages coming across my desk, and I would 
call my mother-in-law, and I would read them to her and find 
out whether she understood what I was saying. And if she did 
not understand what I was saying, then I would send them back 
to Carnegie Mellon. So after about 2 weeks, Carnegie Mellon got 
very frustrated with my mother-in-law.
    But what we have to do is understand what is the American 
public interested in. Who are the audiences for this Open 
Government content? Let us look at this hearing. Apart from a 
lot of the school group that left earlier, this is not a packed 
house, and so we need to work out what it is that people are 
looking for from Open Government and provide that content.
    The other thing I would say is that it is garbage in, 
garbage out, and so there is a lot of discussion, and Senator 
Coburn was quite forceful in terms of this subcontractor issue 
and reporting subcontractor performance and so on. And the net 
of it is if we do not have a better program management system 
and a more standardized program management system in 
government, then the data we get is going to be less than 
optimal, and the outputs that we can produce are going to be 
less than optimal.
    We need to do the same thing from a program management 
standpoint and also from a procurement standpoint. Wouldn't it 
be great if we had better quality data coming out of the 
agencies, people coding the same information in the same 
fashion. So I would say, that, yes, we need to look at the 
information that is coming out of the agencies, but we have to 
take one step further back and look at how that information is 
being captured, how we are managing projects in government, how 
we are managing and recording the procurement process, and also 
on the other end who is interested in consuming this data and 
what are their opinions. What are the outcomes of these 
efforts, not just the behaviors, which I think are very 
important.
    Senator Carper. All right. Well, thank you very much. I 
thank each of you for your thoughtful responses.
    Some of you have criticized the Open Government movement as 
focusing a little bit too much on inside baseball. Now that we 
are in baseball season, we will use that as an example. For 
example, the previous Administration typically focused their 
efforts on uploading outdated agency reports online that were 
many times difficult to find and oftentimes more difficult to 
understand. And although these reports were better than 
nothing, Americans want transparency in the day-to-day services 
that they depend on like Medicare, veterans' benefits, tax work 
done by the IRS, or maybe getting small business loans.
    How will Open Government help them? And how do we make sure 
that we prioritize our efforts to help citizens? So a two-part 
question.
    Mr. Blanton. The way we have looked at the Freedom of 
Information system is it is a kind of market signaling or 
should be a kind of market signaling to the government to help 
answer Mr. O'Keeffe's question about what are the audiences, 
what do people care about, what do they want to get out of 
their government. And if you look at the largest user groups of 
Freedom of Information, according to agencies' own reporting, 
it is veterans asking about their service records and their 
benefits; it is senior citizens asking about Medicare and 
Social Security and projecting their lifetime. And those are in 
the tens of millions, those information requests.
    And so the one problem is that many of those are personal 
or private. That is first-party information. They are asking 
for it about themselves or about their family. You do not put 
that on the Web, or you probably should not, not if it 
accompanies a Social Security record number, right? And yet 
there are probably ways--and this is what I think I am most 
optimistic about the Open Government plan focus on tools like 
dashboards that make the online experience so much easier to 
navigate so that you can then get to those individual--those 
pieces of information most directly relevant to your own needs, 
your own life. And if the Web can deliver what the promise is 
and that the dashboard kind of toolkit allows for, this single 
click, double click navigation right to the place, then the 
system can be far more responsive, but we have got to clean up 
the Freedom of Information nonresponsiveness of agencies, do 
exactly what Mr. Wonderlich and the Sunlight Foundation are 
trying to do, get more of the high-value data sets on the Web 
so people can go search for themselves, because I cannot 
predict what Mr. O'Keeffe's mother-in-law is going to want to 
know from a given set of files, but it is our obligation----
    Senator Carper. But can Mr. O'Keeffe predict?
    Mr. Blanton. Maybe he cannot even predict, exactly.
    Senator Carper. OK, just checking.
    Mr. Blanton. But if you set up the navigation tool so that 
his mother-in-law can go to the site herself and look around, 
make it as easy as doing an online search in any of the major 
search engines, then you are at a place where you are going to 
get the benefit of the wisdom of crowds.
    Mr. O'Keeffe. It is a full-time job trying to predict what 
my wife wants to do, so I have not spent that much time 
pondering my mother-in-law's requests.
    As far as this notion of how will Open Government help and 
how to prioritize, I would put it that research obviously is 
very important, understanding, what are the priority issues, 
but maybe that is not necessarily the role for government. 
Maybe the role for government is to clean up the data, to 
provide transparency and accountability in order to show the 
faith in our democracy, to improve the quality of our 
bureaucracy and the efficiency of our bureaucracy.
    But by publishing the data in a format which is machine 
readable and intelligible, as Mr. Wonderlich had mentioned, 
there is an opportunity to unleash the private sector to 
develop new applications which will deliver value in multiple 
veins. So we are looking at perhaps almost a cable television 
model of applications that could provide value for different 
segments of the community, and how we work out whether those 
are actually delivering value, well, they will either succeed 
or they will fail. And so if you look at things, for example, 
like health or veterans' health, why shouldn't pharmaceutical 
companies step in and underwrite applications that will be 
written on top of government data which would deliver value to 
the American public.
    So I think that the notion of the government developing 
this complete infrastructure, from source, from cradle to 
grave, if you will, in the Open Government model is not 
necessarily the way to go. I think what we have to look at is 
at what point is the data high quality to begin with? Is it 
served up in a fashion which is easily navigable? Is it 
delivering value inside the government? Looking at the priority 
areas but then potentially providing the opportunity for the 
private sector to step in and deliver value-add on top of that, 
and if they succeed or fail, that is going to be largely a 
product of whether they are delivering value or not.
    Senator Carper. OK. Thanks.
    Mr. Wonderlich, you get the last shot at this question.
    Mr. Wonderlich. Thanks. So I think there is this existing--
the way things work now, so much of our government's data is 
collected for the benefit of maybe 10 government regulators. 
And for the life of me, I cannot figure out why that has been 
the case for so long.
    For example, the Department of Labor just released as one 
of their flagship initiatives a unified search for different 
accountability data, so certain OSHA violations and mine safety 
health data. And I think that is a great move, but it also 
leaves me wondering why that was never released before. So if 
that data is valuable to collect and should have a behavioral 
impact on the people that they regulate, then shouldn't it have 
been released to the public in the first place? And I think the 
mind-set responsible for not releasing that is one that says we 
know how this data should be used best, and it is our job to 
fix the problem. And I think what is happening now is there are 
whole teams of developers, many of which are organizing through 
our Sunlight labs, who are chomping at the bit to create new 
businesses and new visualizations of how power and how our 
country works and how they can use government data to start to 
tell those stories and hold people accountable.
    So on the question of priorities, I agree we have to have 
priorities about what to open, but I think at the same time we 
should recognize that we do not have all the right answers, and 
we should unleash the private sector and the nonprofit sector 
to help to start to find those answers.
    Senator Carper. I think that response gives us a pretty 
good segue to my next to the last question. Just based on what 
you have heard your colleagues at the panel saying here today, 
some of the discussion, some of the questions, some of the 
responses to those, is there anything else that you would like 
to either amend your original statements, opening statements, 
or maybe reinforce or underline, re-emphasize something that 
you had said in your opening statement? Just be thinking about 
that for us, if you will.
    I think there is a saying I like to remind my staff when we 
are considering what the role of government should be in 
America, and this is not original to me, but I like to say that 
the role of government is to steer the boat, not to row the 
boat. And people say, ``What do you mean by that?'' And I use 
the analogy of health care delivery. In England, for the most 
part, the doctors and nurses and health care folks actually are 
government employees. In this country, that is not the case. We 
have doctors, nurses, and so forth in the Defense Department 
and the VA, but for the most part health care delivery is--it 
is either done through nonprofits or it is done through for-
profit entities. But the role of the government, as I think, is 
to steer the boat, not row the boat.
    I also like to tell them that public policy should really 
try to leverage market forces. At least one of you referred to 
that here today. And we ought to really seek to incentivize 
people to do what is the right thing.
    In last month's testimonies, Mr. Kundra and Mr. Chopra 
mentioned setting up prizes and awards for people to compete 
for if they developed a more effective way to use agency 
information, and that strikes me as an effective model, an 
interesting model but a potentially quite effective model that 
could lead to some interesting results.
    What type of results are we seeing so far? And is this 
something that Congress ought to think of expanding in the 
future? And, second, are there other ways we can incentivize 
agencies to do the right thing before it leads to a problem?
    Mr. Wonderlich. On the question of prizes and awards, that 
is a topic that my organization has some experience with.
    So we ran something called the Apps for America contest, 
and it has happened twice, and right now we have a Design for 
America contest going on, and this is really an effort for us 
to say there is this powerful new force in the country which is 
that of the developer, whether working for a business or 
perhaps on their own, and trying to say what happens when you 
take those developers and set them free on Data.gov, what kind 
of useful things get created. So things like FlyOnTime.us, 
which is a Web page where you can see for any flight, how often 
is this delayed, if this is an important flight, should I aim 
for a different time.
    Senator Carper. I wonder if we have those for trains.
    Mr. Wonderlich. I do not know if that exists, but if we----
    Senator Carper. I will have to find out. I used to be on 
the Amtrak board, and I ride the train a lot. Amtrak used to 
have an ad campaign that went something like this: ``Maybe your 
next flight should be on a train.'' In Delaware we only have 
non-commercial airports. In Delaware, I like to say all of our 
next flights are on trains.
    I am sorry I interrupted you. Go ahead
    Mr. O'Keeffe. I think they were going to go with maybe your 
next trip should be on a train.
    Senator Carper. There you go.
    Mr. Wonderlich. But from an investment standpoint, we had 
enormous success with spending something, along the lines of 
$30,000 in prize money and getting dozens and dozens of 
applications that you would pay far more than that to have 
developed, and almost everyone involved benefited from the 
notoriety of being involved and getting attention to what it is 
that they were able to create. So we have had some success with 
the prize model. I am not sure how broadly that could apply to 
solving some of government's tougher problems, but I think that 
is an approach that the Obama Administration is committed to 
experimenting with and seeing how far we can take it.
    On a similar level, the phenomenon of the Dashboard, which 
I think we are seeing more and more of, there is the IT 
Dashboard. OIRA now has a Dashboard about pending regulations, 
and the Department of Justice just announced a new FOIA 
Dashboard. I think those are all very useful things to display 
what is knowable about a certain behavior. I think we can 
assume that will have a strong effect on behavior, and it will 
be interesting over the next couple of years to see what the 
limit is of how much behavior can be affected by displaying it. 
But I think that experiment is currently underway.
    Senator Carper. Thank you.
    Mr. O'Keeffe. So I think that the initiatives that are 
taking place are good, and we need to innovate in order to 
change to achieve different outcomes. At the same time, we need 
to realize that we are going to fail in some areas, and this is 
not something that the government is very comfortable with. And 
so one of the outcomes of innovation is failure in certain 
areas, so we need to develop walls around programs, try new 
approaches and recognize they may not succeed. And I know it 
sounds a little strange to say that government needs to embrace 
the idea of failing, but I do think that is important. In order 
to succeed, you have to try again.
    I think that this notion of prizes is a great idea, and I 
think wholeheartedly we support the innovation prizes that Mr. 
Kundra is working on and look forward to working with him on in 
that area. And at the same time, we need to look at both the 
stick and the carrot, so the prizes are a great idea. We also 
need to continue looking at reports that show how agencies are 
doing. And what I would recommend is that rather than just 
looking at measuring behaviors--and I think if you look at 
information security, FISMA is a perfect example of that where 
we measure whether or not you put in all this paperwork. We are 
not really measuring whether or not your agency is actually 
more secure.
    Senator Carper. We do a similar thing in education. When we 
measure performance in a classroom by educators or in a school 
or in a school district, we measure a process. We do not 
measure outcomes.
    Mr. O'Keeffe. Right.
    Senator Carper. Although speaking of leveraging resources 
and a race to the top, I am amazed at how effectively the 
Department of Education through Secretary Duncan has taken 
about $4 billion, which is, admittedly, a lot of money, but 
literally to leverage enormous changes in over 40 States in the 
way they deliver education.
    Mr. O'Keeffe. No. I think that is right. One of my 
colleagues has a severely disabled child, and so his wife has 
to go into the schools with Jack in order to take these tests. 
And it is critical that the kids actually take the test in 
order to get through the process. Of course, the kids cannot 
take the test, so the mother has to put the hand on the button 
in order to make sure they check the box, in order to file the 
paperwork, in order to get the funding. And so really what we 
have to do is focus increasingly on what are the outcomes that 
we are looking for and try to measure outcomes rather than 
behaviors.
    Senator Carper. Fred Voltaire is the guy I----
    Mr. Blanton. Oh, Mr. Voltaire. Right, your college 
roommate.
    I was in Bulgaria a few years ago, and they had developed 
prizes for the government ministries who were the best and the 
worst at answering public request information. And the best 
award was called the Golden Key Award, and it was this 
beautiful, huge skeleton key on a trophy pedestal. Beautiful. 
The minister showed up to accept it, very happy. The bad award 
was not--they did not have Rosemary Woods to call on, and so 
for them it was the Rusted Padlock Award, also on a pedestal. 
And let me tell you, no minister showed up to accept it, but 
that was what all the newspaper stories led with, was the 
Rusted Padlock. And I think that is part of the problem with 
the prize approach, which is the news is the negative, when 
actually our challenge is how do you accentuate the positive, 
right?
    And so that is why I would say, when you are looking at 
constructing hearings, have a couple that are subperformers, 
but get a couple of the best practices ones, because the best 
practices ones, the prize winners are the ones that prove that 
the old bureaucratic refrain is resources, we just do not have 
enough resources, is not correct. The real difference between 
the high performers and low performers is not resources. It is 
leadership and will and pressure.
    Senator Carper. Well, we try to put a spotlight on both 
good behavior that we can to incentivize more of and that which 
is not so good.
    The last question was just to say after looking at what 
each of you have been saying in response--just in your opening 
statements but also in response to questions and listening to 
the responses of others to the questions that have been raised, 
is there anything that you want to say or add in closing? It 
can be something new, maybe a new thought. It could be just to 
emphasize or underline already something that has been said by 
you or by someone else. We will start, Mr. O'Keeffe, with you, 
if you do not mind.
    Mr. O'Keeffe. Right in the middle.
    Senator Carper. Yes.
    Mr. O'Keeffe. I would just close with reiterating what I 
talked about earlier, which is, this is really analogous to a 
trip to the moon, and it is going to take some time. So, Vivek 
Kundra was really put to it by Senator Coburn about the 
subcontractor issue, and I think it is a very important issue, 
but I think that we have to be practical about what can be done 
and the time frames associated with it. So if we have program 
management and procurement systems where the data is not 
properly passed and there is not sufficient fidelity, then it 
is going to be impossible to get the data that we require, so 
we need to be realistic about what can be done.
    I do not mean to say that letting people off the hook is 
the way to go, but I think we need to be practical. I think 
that we need to focus on outcomes, so it is not just a matter 
of publishing data. We want to work out what our priorities are 
and what we are looking to get out of this, who our audience 
is. And at the same time, I think that the notion of engaging 
with the private sector--and by doing that we allow the 
government to perhaps insulate it from some of the turbulence 
and ups and downs associated with getting new business models, 
which I think is a great idea.
    And, last, I would say that, I appreciate the hearing. It 
is great to have these issues raised, and we are looking for 
more dialogue with the Administration, with the government on 
how to make this better. The answers are not going to come from 
one source. They are going to come from this crowd sourcing and 
discussion.
    Thank you.
    Senator Carper. Yes, thank you. Mr. Blanton.
    Mr. Blanton. I would like to reiterate something that I 
mentioned to you when you came down from the podium when we 
called off that last hearing. I think I said to you, ``Mr. 
Chairman, that first panel of government witnesses was 
brilliant.'' And it was brilliant for this reason: That the 
money and the power was at one end of the table, Mr. Kundra's 
end of the table, and the legal responsibilities were in many 
ways at the other end of the table with Mr. Ferriero, the 
Archivist of the United States.
    Senator Carper. I remember when you said that.
    Mr. Blanton. And the National Archives is an orphan agency, 
unfortunately, and down at that end is where the money and the 
energy is and where the focus is, and yet our real challenge, I 
think, as citizens, as people who care about Open Government 
and transparent and accountable government, is to turn the 
Archives' role from that orphan agency out in the hinterland 
into being an integral part of the information technology 
development on which we are spending $40, $60, $80 billion a 
year, so that it is a seamless piece, so we are not saying to 
Mr. Ferriero, OK, pick up the mess after we have created all 
these very different legacy systems, all these different forms 
of metadata, all these different kinds of software and 
hardware, you have got to save the historically important stuff 
that is important to individuals and for history, but you are 
not integrated with what Mr. Kundra is doing.
    I think at one of our previous discussions I suggested that 
the concept we should be after for that integration is 
something that you see on personal computers today, an 
automatic, built-in, back-up process at the time that you are 
running your network or at the time you are running your 
ethernet. The Apple Mac has a time capsule function where I 
never have to back up my little computer. It is every day 
listening to my computer when I log on the net looking for a 
new file or an updated file and automatically saving it.
    The role the National Archives should play 5 years, 10 
years, 15 years from now, should be the back-up hard drive for 
the whole Federal Government. But to get from where it is 
today, orphan agency spending only may be $400 million a year 
and then a clean-up after the parade mode is going to be 
permanent failure unless it switches over and becomes that 
back-up hard drive on the net for the whole Federal Government. 
To me that is the great kind of challenge, I think, 
institutionally.
    Senator Carper. All right. Thank you. Mr. Wonderlich, last 
word.
    Mr. Wonderlich. Thank you. So to me, I think we are at a 
really transformative moment for at least two reasons. One is 
because the gap between people's expectations and what the 
government is delivering is at an all-time high. If you look at 
our experience as consumers or shoppers or students, it is very 
different from our experience as citizens. The other reason is 
the way that President Obama raised the issue on the campaign 
trail of transparency and promised very big things about 
changing the way the government works. And that leaves us in a 
situation where the press and the public are very hungry for an 
evaluation, and it would be really simple right now to try to 
assign a pass-fail grade. To me, I think that would be an 
enormous mistake because what is happening is much more 
important and much more complicated than you could evaluate 
with a simple pass or fail.
    So I think the challenge that I see right now is to take 
these transparency issues, which are really some of the things 
that people care most about, like earmarks or the way Federal 
money is spent or the way influence works in Washington or the 
way our decisions are made, and keep the momentum that is 
happening now moving forward in a way that is meaningful but 
also recognizes the complexity of the challenge.
    So as evaluators, I think that is the challenge that we 
have right now.
    Senator Carper. All right. Thank you. Again, I will go back 
to where I started off, and that is just to thank you for 
coming back and finding time in your schedules to be with us 
now a second time and to actually have a chance to share your 
thoughts with us and to respond to our questions and actually 
reflect on what each of you have to offer. We thank you for 
that.
    When my wife asks me this evening, ``How was that hearing 
that you were going to hold today?'' I am going to say it was 
fun, and it also turned out to be, I think, highly informative, 
and we thank you for making it that way and sort of holding our 
attention and giving us some good insights going down the road.
    We discussed a lot of important issues that although to 
most of us, to a lot of people in this country, they seem 
fairly abstract, but they can also lead to real-world impacts. 
For example, one area that we have been focusing our efforts on 
is over-budget IT systems that many times just do not deliver 
what they were supposed to have delivered.
    I was happy to hear last month that, I think, because of 
our efforts, the Veterans Administration terminated, I believe, 
over $50 million in bad investments, and the Department of 
Homeland Security will be finishing a review soon that also may 
lead them to start cutting some of their dead weight. We need 
to expand this kind of accountability to most, if not all 
investments that our agencies undertake.
    I also hear that the Obama Administration is leveraging the 
private sector to come up with new and even exciting ways to 
use massive amounts of government information. This type of 
thinking, I believe, recognized that our government is not the 
only one with good ideas. In fact, many times it is the average 
citizen, or the above average citizen maybe, who knows where 
the problems lie and maybe has some pretty good ideas on how to 
fix them.
    So as we leave here today, I hope we will not stop 
discussing these issues. I think we will not. In fact, I want 
to invite our witnesses, or anyone else for that matter who 
might share our interests in these matters, to submit their 
ideas on ways to improve how our agencies are operating and to 
reduce wasteful spending.
    Now, usually my colleagues who were unable to be here today 
will submit some questions for the record, and if you do 
receive them. You have as much as 2 weeks to submit questions, 
and if you would be so kind as to respond to them promptly, we 
would be grateful for that.
    You all make a good team, and we appreciate very much, 
again, your taking your time to share not just part of your 
afternoon but some really good ideas with all of us. And with 
that having been said, this hearing is adjourned. Thank you.
    [Whereupon, at 3:42 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6893.048

[GRAPHIC] [TIFF OMITTED] T6893.049

[GRAPHIC] [TIFF OMITTED] T6893.050

[GRAPHIC] [TIFF OMITTED] T6893.051

[GRAPHIC] [TIFF OMITTED] T6893.052

[GRAPHIC] [TIFF OMITTED] T6893.053

[GRAPHIC] [TIFF OMITTED] T6893.054

[GRAPHIC] [TIFF OMITTED] T6893.001

[GRAPHIC] [TIFF OMITTED] T6893.002

[GRAPHIC] [TIFF OMITTED] T6893.003

[GRAPHIC] [TIFF OMITTED] T6893.004

[GRAPHIC] [TIFF OMITTED] T6893.005

[GRAPHIC] [TIFF OMITTED] T6893.006

[GRAPHIC] [TIFF OMITTED] T6893.007

[GRAPHIC] [TIFF OMITTED] T6893.008

[GRAPHIC] [TIFF OMITTED] T6893.009

[GRAPHIC] [TIFF OMITTED] T6893.010

[GRAPHIC] [TIFF OMITTED] T6893.011

[GRAPHIC] [TIFF OMITTED] T6893.012

[GRAPHIC] [TIFF OMITTED] T6893.013

[GRAPHIC] [TIFF OMITTED] T6893.014

[GRAPHIC] [TIFF OMITTED] T6893.015

[GRAPHIC] [TIFF OMITTED] T6893.016

[GRAPHIC] [TIFF OMITTED] T6893.017

[GRAPHIC] [TIFF OMITTED] T6893.018

[GRAPHIC] [TIFF OMITTED] T6893.019

[GRAPHIC] [TIFF OMITTED] T6893.020

[GRAPHIC] [TIFF OMITTED] T6893.021

[GRAPHIC] [TIFF OMITTED] T6893.022

[GRAPHIC] [TIFF OMITTED] T6893.023

[GRAPHIC] [TIFF OMITTED] T6893.024

[GRAPHIC] [TIFF OMITTED] T6893.025

[GRAPHIC] [TIFF OMITTED] T6893.026

[GRAPHIC] [TIFF OMITTED] T6893.027

[GRAPHIC] [TIFF OMITTED] T6893.028

[GRAPHIC] [TIFF OMITTED] T6893.029

[GRAPHIC] [TIFF OMITTED] T6893.030

[GRAPHIC] [TIFF OMITTED] T6893.031

[GRAPHIC] [TIFF OMITTED] T6893.032

[GRAPHIC] [TIFF OMITTED] T6893.033

[GRAPHIC] [TIFF OMITTED] T6893.034

[GRAPHIC] [TIFF OMITTED] T6893.035

[GRAPHIC] [TIFF OMITTED] T6893.055

[GRAPHIC] [TIFF OMITTED] T6893.056

[GRAPHIC] [TIFF OMITTED] T6893.057

[GRAPHIC] [TIFF OMITTED] T6893.058

[GRAPHIC] [TIFF OMITTED] T6893.059

[GRAPHIC] [TIFF OMITTED] T6893.060

[GRAPHIC] [TIFF OMITTED] T6893.061

[GRAPHIC] [TIFF OMITTED] T6893.062

[GRAPHIC] [TIFF OMITTED] T6893.063

[GRAPHIC] [TIFF OMITTED] T6893.064

[GRAPHIC] [TIFF OMITTED] T6893.065

[GRAPHIC] [TIFF OMITTED] T6893.066

[GRAPHIC] [TIFF OMITTED] T6893.036

[GRAPHIC] [TIFF OMITTED] T6893.037

[GRAPHIC] [TIFF OMITTED] T6893.038

[GRAPHIC] [TIFF OMITTED] T6893.039

[GRAPHIC] [TIFF OMITTED] T6893.040

[GRAPHIC] [TIFF OMITTED] T6893.041

[GRAPHIC] [TIFF OMITTED] T6893.042

[GRAPHIC] [TIFF OMITTED] T6893.043

[GRAPHIC] [TIFF OMITTED] T6893.044

[GRAPHIC] [TIFF OMITTED] T6893.045

[GRAPHIC] [TIFF OMITTED] T6893.046

[GRAPHIC] [TIFF OMITTED] T6893.047

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
